<html>
<title> - LEGISLATIVE HEARING ON H.R. 306, TO DIRECT THE SECRETARY OF THE INTERIOR TO ENTER INTO AN AGREEMENT WITH THE COROLLA WILD HORSE FUND, CURRITUCK COUNTY, AND THE STATE OF NORTH CAROLINA TO PROVIDE FOR THE MANAGEMENT OF FREE- ROAMING WILD HORSES IN AND AROUND THE CURRITUCK NATIONAL WILDLIFE REFUGE. ``COROLLA WILD HORSES PROTECTION ACT''; H.R. 588, TO REDESIGNATE THE NOXUBEE NATIONAL WILDLIFE REFUGE AS THE SAM D. HAMILTON NOXUBEE NATIONAL WILDLIFE REFUGE; AND S. 266, A BILL TO REDESIGNATE THE NOXUBEE NATIONAL WILDLIFE REFUGE AS THE SAM D. HAMILTON NOXUBEE NATIONAL WILDLIFE REFUGE; H.R. 258, TO REQUIRE THE OFFICE OF MANAGEMENT AND BUDGET TO PREPARE A CROSSCUT BUDGET FOR RESTORATION ACTIVITIES IN THE CHESAPEAKE BAY WATERSHED, TO REQUIRE THE ENVIRONMENTAL PROTECTION AGENCY TO DEVELOP AND IMPLEMENT AN ADAPTIVE MANAGEMENT PLAN, AND FOR OTHER PURPOSES. ``CHESAPEAKE BAY ACCOUNTABILITY AND RECOVERY ACT OF 2011''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







  H.R. 306, COROLLA WILD HORSES PROTECTION ACT; H.R. 588/S. 266, TO 
    REDESIGNATE THE NOXUBEE NATIONAL WILDLIFE REFUGE AS THE SAM D. 
HAMILTON NOXUBEE NATIONAL WILDLIFE REFUGE; & H.R. 258, CHESAPEAKE BAY 
                ACCOUNTABILITY AND RECOVERY ACT OF 2011

=======================================================================

                           LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, April 7, 2011

                               __________

                           Serial No. 112-22

                               __________

       Printed for the use of the Committee on Natural Resources




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-625 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                













                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 7, 2011..........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     3
        Prepared statement of....................................     4
    Wittman, Hon. Robert J., a Representative in Congress from 
      the State of Virginia......................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Harper, Hon. Gregg, a Representative in Congress from the 
      State of Mississippi.......................................     8
        Prepared statement on H.R. 588 and S. 266................    10
        Letter from the National Fish and Wildlife Foundation 
          submitted for the record...............................    11
    Hutchins, Dr. Michael, Executive Director/CEO, The Wildlife 
      Society....................................................    19
        Prepared statement on H.R. 306...........................    21
    Jones, Hon. Walter B., Jr., a Representative in Congress from 
      the State of North Carolina................................     6
        Prepared statement on H.R. 306...........................     7
    Mann, Dr. Roger L., Professor of Marine Science, Virginia 
      Institute of Marine Science, College of William and Mary, 
      Gloucester Point, Virginia.................................    16
        Prepared statement on H.R. 258...........................    18
    McCalpin, Karen H., Executive Director, Corolla Wild Horse 
      Fund, Inc., Corolla, North Carolina........................    23
        Prepared statement on H.R. 306...........................    25
    Siekaniec, Greg, Acting Deputy Director, U.S. Fish and 
      Wildlife Service, U.S. Department of the Interior..........    12
        Prepared statement on H.R. 588 and S. 266................    13

Additional materials supplied:
    Marczyk, Bernie, Governmental Affairs Representative, Ducks 
      Unlimited, Annapolis, Maryland, Letter submitted for the 
      record on H.R. 258.........................................    38
    Siglin, Doug, Director of Federal Affairs, Chesapeake Bay 
      Foundation, Letter submitted for the record on H.R. 258....    36
    Skinner, Katherine D., State Director, North Carolina, The 
      Nature Conservancy, Letter submitted for the record on H.R. 
      306........................................................    34

 
LEGISLATIVE HEARING ON H.R. 306, TO DIRECT THE SECRETARY OF THE 
        INTERIOR TO ENTER INTO AN AGREEMENT WITH THE COROLLA 
        WILD HORSE FUND, CURRITUCK COUNTY, AND THE STATE OF 
        NORTH CAROLINA TO PROVIDE FOR THE MANAGEMENT OF FREE-
        ROAMING WILD HORSES IN AND AROUND THE CURRITUCK 
        NATIONAL WILDLIFE REFUGE. ``COROLLA WILD HORSES 
        PROTECTION ACT''; H.R. 588, TO REDESIGNATE THE NOXUBEE 
        NATIONAL WILDLIFE REFUGE AS THE SAM D. HAMILTON NOXUBEE 
        NATIONAL WILDLIFE REFUGE; AND S. 266, A BILL TO 
        REDESIGNATE THE NOXUBEE NATIONAL WILDLIFE REFUGE AS THE 
        SAM D. HAMILTON NOXUBEE NATIONAL WILDLIFE REFUGE; H.R. 
        258, TO REQUIRE THE OFFICE OF MANAGEMENT AND BUDGET TO 
        PREPARE A CROSSCUT BUDGET FOR RESTORATION ACTIVITIES IN 
        THE CHESAPEAKE BAY WATERSHED, TO REQUIRE THE 
        ENVIRONMENTAL PROTECTION AGENCY TO DEVELOP AND 
        IMPLEMENT AN ADAPTIVE MANAGEMENT PLAN, AND FOR OTHER 
        PURPOSES. ``CHESAPEAKE BAY ACCOUNTABILITY AND RECOVERY 
        ACT OF 2011''
                              ----------                              


                        Thursday, April 7, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Wittman, Southerland, 
Harris, Bordallo and Sablan.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Under Committee Rule 
4[f], opening statements are limited to the Chairman and 
Ranking Member of the Subcommittee so that we can hear from our 
witnesses more quickly. However, I ask unanimous consent to 
include any other Member's opening statement in the hearing 
record if submitted to the Clerk by close of business today. 
Hearing no objection, so ordered.
    Good morning. Today the Subcommittee will hear testimony on 
four legislative proposals. The first bill has been introduced 
by our distinguished Committee colleague, the gentleman from 
the 1st Congressional District in Virginia, Congressman Rob 
Wittman, whose timing was perfect this morning. H.R. 258 would 
require an interagency crosscut budget that will provide 
clarity and Federal funding for restoration efforts in the 
Chesapeake Bay. In addition, this legislation will require that 
an adaptive management plan be adopted for Chesapeake Bay 
restoration activities. This plan would institute measurable 
objectives to ensure that both Federal and state dollars spent 
on restoration are producing positive results. The Chesapeake 
Bay supports more than 3,600 species of fish, plants and 
wildlife, and more than $1 billion in economic activity is 
generated from one of the largest estuaries in the world.
    While millions of tax dollars have been spent to improve 
the quality of the Bay, these funds are distributed among many 
agencies and departments. The many Federal and state Chesapeake 
Bay restoration programs lack a single, comprehensive reporting 
system for the funding of these activities. The fundamental 
goal of H.R. 258 is to eliminate this serious shortcoming.
    The second bill, H.R. 306, has been introduced by our 
colleague from North Carolina, Congressman Walter B. Jones. 
Now, the goal of his legislation is to try to save the herd of 
wild Corolla horses by requiring the Fish and Wildlife Service 
to enter into a new management agreement. I find it curious 
that the Fish and Wildlife Service feels these beautiful 
horses, whose ancestors arrived on the shores of North Carolina 
nearly 500 years ago, to be not native to this ecosystem and 
pest animals, yet this same agency has spent millions of 
dollars trying to protect, restore and save the population of 
such listed species as the Delhi Sands fly, delta smelt, 
kangaroo rat, New Mexico ridge-nosed rattlesnake, and Texas 
blind salamander.
    I suspect that more than a few Americans would find these 
species to be pests. While this is not a hearing on the 
Endangered Species Act, what we do know is that the Corolla 
Wild Horse Fund, who have asked for changes to the management 
plan, passionately believes that Corolla wild horses are being 
managed for extinction. Finally, our colleague, Congressman 
Gregg Harper, has introduced H.R. 588, a bill to rename the 
Noxubee National Wildlife Refuge in Mississippi after former 
Fish and Wildlife Service Director Sam D. Hamilton who 
unexpectedly died on February 20, 2010. Director Hamilton had a 
distinguished 30-year career with the Service, and it is my 
understanding that his first outdoor jobs were banding wood 
ducks and building waterfowl pens at the Noxubee National 
Wildlife Refuge. Similar legislation, S. 266, has already 
passed the Senate and I hope our witnesses will discuss any 
differences or concerns with that legislation, as well as the 
House version. I look forward to hearing the testimony on these 
proposals. I am now pleased to recognize our Ranking Democratic 
Member from the Commonwealth of the Northern Mariana Islands, 
Congressman Sablan, for any statement he would like to make.
    [The prepared statement of Dr. Fleming follows:]

  Statement by The Honorable John Fleming, Chairman, Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs, on H.R. 258, H.R. 306, 
                          H.R. 588 and S. 266

    Good morning. Today the Subcommittee will hear testimony on four 
legislative proposals. The first bill has been introduced by our 
distinguished Committee colleague, the gentleman from the 1st 
Congressional District in Virginia, Congressman Rob Wittman.
    H.R. 258 would require an interagency cross-cut budget that will 
provide clarity in federal funding for restoration efforts in the 
Chesapeake Bay. In addition, this legislation will require that an 
adaptive management plan be adopted for Chesapeake Bay restoration 
activities. This plan would institute measurable objectives to ensure 
that both federal and state dollars spent on restoration are producing 
positive results.
    The Chesapeake Bay supports more than 3,600 species of fish, plants 
and wildlife, and more than $1 billion in economic activity is 
generated from one of the largest estuaries in the world. While 
millions of tax dollars have been spent to improve the quality of the 
Bay, these funds are distributed among many agencies and departments. 
The many federal and state Chesapeake Bay restoration programs lack a 
single comprehensive reporting system for the funding of these 
activities. The fundamental goal of H.R. 258 is to eliminate this 
serious shortcoming.
    The second bill, H.R. 306, has been introduced by our colleague 
from North Carolina, Congressman Walter B. Jones. The goal of his 
legislation is to try to save the herd of wild Corolla horses by 
requiring the Fish and Wildlife Service to enter into a new management 
agreement.
    I find it curious that the Fish and Wildlife Service feels these 
beautiful horses whose ancestors arrived on the shores of North 
Carolina nearly 500 years ago to be ``not native to this ecosystem'' 
and ``pest animals''. Yet, this same agency has spent millions of tax 
dollars trying to protect, restore and save the population of such 
listed species as the Delhi Sands fly, delta smelt, Kangaroo rats, New 
Mexico ridge-nosed rattlesnakes and Texas blind salamanders. I suspect 
that more than a few Americans would find these species to be 
``pests''. While this is not a hearing on the Endangered Species Act, 
what we do know is that the Corolla Wild Horse Fund, who have asked for 
changes to the management plan, passionately believes that Corolla wild 
horses are being managed for ``extinction''.
    Finally, our colleague Congressman Gregg Harper has introduced H.R. 
588, a bill to rename the Noxubee National Wildlife Refuge in 
Mississippi after former Fish and Wildlife Service Director Sam D. 
Hamilton who unexpectedly died on February 20, 2010. Director Hamilton 
had a distinguished 30 year career with the Service and it is my 
understanding that his first outdoors jobs was banding wood ducks and 
building waterfowl pens at the Noxubee National Wildlife Refuge. 
Similar legislation, S. 266, has already passed the Senate and I hope 
our witnesses will discuss any differences or concerns with that 
legislation as well as the House version.
    I look forward to hearing the testimony on these proposals. I am 
now pleased to recognize our Ranking Democratic Member from the 
Commonwealth of Northern Marianas, Congressman Sablan, for any 
statement he would like to make.
                                 ______
                                 

STATEMENT OF HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS FROM 
        THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Well, thank you very much, Mr. Chairman, and 
good morning, everyone. Congressman Jones, thank you for being 
here with us today. I look forward to hearing about your bill, 
H.R. 306, the Corolla Wild Horses Protection Act, which I 
understand will statutorily direct the U.S. Fish and Wildlife 
Service to formally enter into an agreement with other 
governmental and nongovernmental partners to ensure a long-
term, sustainable wild horse herd on the Currituck Outer Banks 
in North Carolina. I hope I got that right. The management of 
non-native wildlife is always a challenge, including in the 
Commonwealth of the Northern Mariana Islands, so I will be 
interested to hear the different perspectives of our witnesses.
    We appreciate you being here as well, Congressman Harper, 
to testify on your bill, H.R. 588, which would redesignate the 
Noxubee National Wildlife Refuge as the Sam D. Hamilton Noxubee 
National Wildlife Refuge. Although I have never had the chance 
to meet Director Hamilton, it is abundantly clear that everyone 
who worked with him during his three-plus decades of public 
service had the utmost respect and admiration for him. His 
lifelong commitment to conservation and restoration of some of 
the nation's most important species and ecosystems started at 
Noxubee National Wildlife Refuge and it is fitting, I think, 
that this place is memorialized in his honor. Finally, I look 
forward to hearing about a bill introduced by our Subcommittee 
colleague, Congressman Wittman, H.R. 258. The Chesapeake Bay 
Accountability and Recovery Act of 2011 would increase 
coordination and accountability by requiring a crosscut project 
and adaptive management for all restoration activities in the 
Bay. I appreciate my colleague's efforts to improve accounting 
and oversight over these restoration activities which will 
enhance and recover the resources of the Bay. With that, I look 
forward to hearing from our witnesses today and learning more 
about these issues. Thank you very much, Mr. Chairman, and I 
yield back.
    [The prepared statement of Mr. Sablan follows:]

      Statement of The Honorable Gregorio Sablan, Ranking Member, 
  Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs, on 
                H.R. 306, H.R. 588/S. 266, and H.R. 258

    Thank you, Mr. Chairman.
    Congressman Jones, thank you for being here with us today. I look 
forward to hearing about your bill, H.R. 306, the Corolla Wild Horses 
Protection Act, which I understand would statutorily direct the U.S. 
Fish and Wildlife Service to formally enter into an agreement with 
other governmental and non-governmental partners to ensure a long-term 
sustainable wild horse herd on the Currituck Outer Banks in North 
Carolina. The management of non-native wildlife is always a challenge, 
including in the Commonwealth of the Northern Mariana Islands, so I 
will be interested to hear the different perspectives of our witnesses.
    We appreciate you being here as well, Congressman Harper, to 
testify on your bill, H.R. 588, which would redesignate the Noxubee 
National Wildlife Refuge as the Sam D. Hamilton Noxubee National 
Wildlife Refuge. Although I never had the chance to meet Director 
Hamilton, it is abundantly clear that everyone who worked with him 
during his three plus decades of public service had the utmost respect 
and admiration for him. His lifelong commitment to conservation and 
restoration of some of the Nation's most important species and 
ecosystems started at Noxubee National Wildlife Refuge and it is 
fitting that this place is memorialized in his honor.
    Finally, I look forward to hearing about a bill introduced by our 
Subcommittee colleague, Congressman Wittman. H.R. 258, the Chesapeake 
Bay Accountability and Recovery Act of 2011 would increase coordination 
and accountability by requiring a crosscut budget and adaptive 
management for all restoration activities in the Bay. I appreciate my 
colleague's efforts to improve accounting and oversight over these 
restoration activities, which will enhance and recover the resources of 
the Bay.
    With that, I look forward to hearing from our witnesses today and 
learning more about these issues.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman. Based on the traditions 
of this Subcommittee, I would like to now recognize my good 
friend and colleague, Rob Wittman, for any opening statement he 
would like to make on this bill, H.R. 258.

STATEMENT OF HON. ROBERT WITTMAN, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Wittman. Well, thank you, Mr. Chairman. I appreciate 
the opportunity to bring this bill before the Committee. As you 
know, the bill was also submitted in the 111th Congress where 
it passed the House 418 to 1. It is a very elemental part of 
what I believe needs to happen to increase the efforts to 
restore the Bay. It revolves around two fairly simple concepts. 
One, crosscut budgeting, and that simply means that where every 
penny is spent on the Bay, we will have a single place in the 
Federal budget where you can see exactly how much is being 
spent, and then from there you can drill down and see exactly 
what agency is spending what. That creates a transparency there 
that leads to the ability to make sure that agencies are 
accountable, and the accountability part is the second element 
of what is called adaptive management.
    Just like you would do if you owned a business, you make 
changes along the way depending on what is the most effective 
expenditure dollar. So if you are seeing that a particular 
practice is effective in reducing nitrogen, you would want to 
make sure you continue that practice. If there was one practice 
you were funding that is not particularly effective, you would 
want to make sure that you either made changes to it or that 
you redirected resources to something that was working. The 
same goes for other restoration practices on the Bay. Whether 
it is oyster restoration or sturgeon restoration, the concept 
is applicable across those Bay programs. So this bill merely 
puts in place those particular elements to make sure that there 
is transparency and that there is accountability in the efforts 
that go on with the Bay.
    Some of the frustration that many of us have with what 
happens in Bay efforts is that you see multiple agencies doing 
many things, many times without coordination and many times 
without sharing data, many times without looking at the 
outcomes and how those outcomes are getting the total Bay 
effort toward restoration, whether it is through resources or 
whether it is for water quality. I think you will hear a little 
bit later on from Dr. Mann who works at the Virginia Institute 
of Marine Science about their experience and how they deal with 
the many different agencies. They are the lead agency in 
Virginia to provide direction and scientific information to the 
Virginia agencies and other agencies up and down the Bay 
watershed as to what is happening with the Bay.
    How are particular efforts either being effective or not 
being effective? I know in my days in working with Bay water 
quality I saw many of those instances where if there was just a 
little more coordination, a little more transparency there, we 
could do so much more and make sure, too, that we are 
accelerating those efforts. As you know, right now the 
Chesapeake Bay Act is up for reauthorization. Many of the 
elements there in restoring the Chesapeake Bay haven't gotten 
to where we need to be as far as restoration. So I truly 
believe that this will be one of those elements to help elevate 
that, create that transparency and streamline things to make 
sure that we are focused on outcomes and coordination. So, Mr. 
Chairman, I thank you for your leadership on the Subcommittee. 
Thank you for the opportunity to bring this bill before the 
Subcommittee today, and I look forward to the testimony of our 
witnesses.
    [The prepared statement of Mr. Wittman follows:]

    Statement of The Honorable Robert J. Wittman, a Representative 
       in Congress from the Commonwealth of Virginia, on H.R. 258

    Chairman John Fleming, thank you very much for holding this hearing 
to consider legislation related to the Chesapeake Bay.
    Today we will hear testimony on H.R. 258, The Chesapeake Bay 
Accountability and Recovery Act of 2011.
    I am honored to represent Virginia's First Congressional District. 
Improving the health of the Chesapeake Bay is a priority to me and many 
of my constituents.
    I believe there is a sense of frustration in the Chesapeake Bay 
watershed about the progress made to restore the Bay. Yes, there have 
been successes. However, with all of the federal, state, local and 
private partner investment we would all like to see more 
accomplishments. Better accounting and more flexible management are 
essential to restoring the Chesapeake Bay.
    My legislation, H.R. 258, the Chesapeake Bay Accountability and 
Recovery Act, would implement and strengthen management techniques like 
crosscut budgeting and adaptive management -to ensure we get more bang 
for our buck and continue to make progress in Bay restoration efforts. 
Both techniques will ensure that we're coordinating how restoration 
dollars are spent and making sure that everyone understands how 
individual projects fit into the bigger picture. That way, we're not 
duplicating efforts, spending money we don't need to or, worse, working 
at cross purposes.
    H.R. 258 would require OMB in coordination with state and federal 
agencies involved in the Bay to report to Congress on the status of 
Chesapeake Bay restoration activities.
    This legislation would also require EPA to develop and implement an 
adaptive management plan for Chesapeake Bay restoration activates.
    Adaptive management relies on rigorous scientific monitoring, 
testing and evaluating; and the flexibility to modify management 
policies and strategies based on changing conditions.
    The bill also requires EPA to appoint an Independent Evaluator (IE) 
to review and report on restoration activities, implementation of 
adaptive management, and other topics suggested by the Chesapeake 
Executive Council. The IE will report findings and recommendations to 
Congress every three years.
    Crosscut budgeting, adaptive management and an Independent 
Evaluator should be key components for the complex restoration activity 
in the Chesapeake Bay.
    The Chesapeake Bay Accountability and Recovery Act is common sense 
legislation, broadly supported throughout the watershed. During the 
111th Congress, the House of Representatives passed H.R. 1053, 
identical legislation by a vote of 418-1. Currently, the bill is 
supported by a bipartisan group of Members of Congress across the Bay 
watershed. Outside organizations, including Ducks Unlimited, the 
Virginia Seafood Council and the Chesapeake Bay Foundation also support 
the legislation. Additionally, the National Taxpayer Union identified 
H.R. 258 as the ``Least Expensive Bill of the Week'' for March 2, 2011.
    Thanks again for holding this hearing and I look forward to 
continuing working with you and the Committee to restore the Chesapeake 
Bay.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman from Virginia and 
certainly appreciate his passion for this issue. It is very 
obvious that you are well read, sir, and well studied this, and 
that is a credit to your state, to your district. I think we 
will now hear from our first panel which is comprised of two of 
our distinguished colleagues, The Honorable Walter B. Jones of 
North Carolina and The Honorable Gregg Harper of Mississippi. 
Gentlemen, welcome to the Walter B. Jones Hearing Room. Like 
all witnesses, your written testimony will appear in the full 
hearing record so I ask that you keep your oral statement to 
five minutes as outlined in our invitation letter to you and 
under Committee Rule 4[a]. Our microphones are not automatic so 
please press the button when you are ready to begin. Let us 
see. OK. With that, I recognize Congressman Jones for five 
minutes, sir.

  STATEMENT OF HON. WALTER B. JONES, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, I want to thank you and the 
Ranking Member and the Members of the Committee for this 
opportunity to discuss H.R. 306, the Corolla Wild Horse 
Protection Act. This bill would provide for a new management 
plan for the free-roaming Corolla wild horses of North 
Carolina's Outer Banks. These Corolla horses can be traced back 
to the arrival of Spanish explorers on the Outer Banks in the 
16th Century. These horses survived in the wild for over four 
centuries and currently roam across 7,500 acres of public and 
private land in coastal Currituck County, North Carolina. 
Unfortunately, under the existing management agreement between 
the Interior Department, the State of North Carolina, Currituck 
County and the nonprofit Corolla Wild Horse Fund, the maximum 
number of horses allowed in the herd is 60. Leading equine 
genetic scientists believe that the number 60 threatens the 
herd's existence due to high levels of inbreeding and low 
levels of genetic diversity. To address this issue, H.R. 306 
would require the parties to the agreement to craft a new 
management plan to allow a herd of no less than 110 horses with 
a target of 120 to 130 horses. That is the minimum number that 
renowned equine genetic scientist Dr. Gus Cothran of Texas A&M 
University has found to be necessary to maintain the herd's 
genetic viability. It is important to note that these numbers 
are well within the care and capacity of the land these horses 
call home and to increase the herd's genetic diversity the bill 
would, under limited circumstances, allow for the introduction 
of a small number of free-roaming wild horses from the related 
herd at Cape Lookout National Seashore. H.R. 306 is similar to 
a bill I authored to save the wild horses of Shackleford Banks 
in Cape Lookout National Seashore. That legislation, H.R. 765, 
which was signed into law by President Bill Clinton in 1998, 
has provided a successful framework for a public/private 
partnership to manage the Shackleford horses. I am grateful to 
President Clinton's Chief of Staff, Erskine Bowles, for his 
help in moving that legislation. Mr. Bowles, who just left his 
position as President of the University of North Carolina's 
system and was co-chair of President Obama's Debt Commission, 
is also a strong supporter of this bill, H.R. 306. Mr. 
Chairman, I would like to read a passage from a letter to the 
Committee in support of this bill from North Carolina State 
Senator Stan White. He states, ``In 2010, the North Carolina 
General Assembly designated the Colonial Spanish Mustangs as 
the North Carolina state horse. It was done to show how 
important these horses are to our culture, their value to our 
economy and our commitment to their welfare. However, this 
designation cannot do its job without a solid management plan 
that clarifies what is necessary for these horses to thrive. 
H.R. 306 would allow for the best management of the herd 
according to what has been scientifically determined to be 
necessary for their health and long-term survival.'' Joining 
Senator White in his support for H.R. 306 are the Humane 
Society, North Carolina's Governor Bev Perdue, Currituck 
County, the Animal Welfare Institute, the Foundation for 
Shackleford Horses, Saving America's Mustangs, American Wild 
Horse Preservation Campaign and Equus Survival Trust. I would 
like to ask unanimous consent for letters of support be 
included for the record.
    Dr. Fleming. The gentleman asks for unanimous consent. If 
there are no objections, so ordered.
    [The prepared statement of Mr. Jones follows:]

    Statement of The Honorable Walter B. Jones, a Representative in 
 Congress from the State of North Carolina, on H.R. 306, Corolla Wild 
                         Horses Protection Act

    Chairman Fleming and Ranking Member Sablan, thank you for this 
hearing on H.R. 306, the Corolla Wild Horses Protection Act. The bill 
would provide for a new management plan for the free-roaming Corolla 
wild horses in and around the Currituck National Wildlife Refuge on the 
Outer Banks of North Carolina. The lineage of the Corolla horses can be 
traced back to the arrival of Spanish explorers on the Outer Banks in 
the 16th century. These beautiful creatures have survived in the wild 
for over four centuries. They currently roam across over 7,500 acres of 
public and private land in coastal Currituck County, North Carolina.
    Unfortunately, under the existing management agreement between the 
U.S. Department of the Interior, the State of North Carolina, the 
County of Currituck and the non-profit Corolla Wild Horse Fund, the 
maximum number of horses allowed in the herd is 60. Leading equine 
geneticists believe that the number 60 poses an immediate threat to the 
herd's existence due to high levels of inbreeding and low levels of 
genetic diversity in the herd. To address this issue, the bill would 
require the parties to the agreement to craft a new herd management 
plan that would allow for a herd of no less than 110 horses, with a 
target population of between 120 and 130 horses. That is the minimum 
number of horses that renowned equine geneticist Dr. Gus Cothran of 
Texas A&M University has found to be necessary to maintain the herd's 
genetic viability. It's important to note that these numbers are well 
within the carrying capacity of the land these horses call home. And to 
increase the herd's genetic diversity, the bill would also under 
limited circumstances allow for introduction of a small number of free-
roaming wild horses from the related herd at Cape Lookout National 
Seashore.
    This bill is similar to one I authored to protect the wild horses 
of Shackleford Banks in the Cape Lookout National Seashore. That 
legislation--H.R. 765--which was signed into law by President Bill 
Clinton in 1998, has provided a successful statutory framework for a 
public-private partnership to manage the Shackleford horses. I am 
grateful to President Clinton's Chief of Staff at that time--Erskine 
Bowles--for his assistance in moving that legislation. Mr. Bowles, who 
just stepped down as President of the University of North Carolina 
System and co-Chaired President Obama's Debt Commission, is also a 
strong supporter of this bill, H.R. 306.
    Mr. Chairman, I would like to read from a letter to the Committee 
supporting H.R. 306 from North Carolina State Senator Stan White, who 
represents Currituck County in the State Senate. He states: ``In 2010, 
the North Carolina General Assembly designated the Colonial Spanish 
Mustang as the North Carolina State Horse. It was done to show how 
important these horses are to our culture, their value to our economy, 
and our commitment to their welfare. However, this designation cannot 
do its job without a solid management plan that clarifies what is 
necessary for these horses to thrive. H.R. 306 would allow for the best 
management of the herd according to what has been scientifically 
determined to be necessary for their health and long-term survival.''
    Joining Senator White in supporting H.R. 306 are the Humane 
Society, North Carolina Governor Bev Perdue, Currituck County, the 
Animal Welfare Institute, The Foundation for Shackleford Horses, Saving 
America's Mustangs, American Wild Horse Preservation Campaign, and 
Equus Survival Trust. I would like to ask unanimous consent for letters 
of support from these individuals and organizations to be included for 
the record.
    Mr. Chairman, again thank you for holding this hearing on H.R. 306. 
It is a legislative fix based on sound science, and I urge the 
Subcommittee to support it.
                                 ______
                                 
    Mr. Jones. Mr. Chairman, before I close I would like to 
point to my right and my left these beautiful horses on the 
shore in Currituck County. they are majestic, they again are 
traced back to the Spanish Mustangs. Mr. Chairman and Ranking 
Member, I want to thank you for this opportunity to testify on 
H.R. 306. Thank you, sir.
    Dr. Fleming. I thank the distinguished gentleman from North 
Carolina for your testimony. Now we will turn to the 
distinguished gentleman from Mississippi. Sir, you have five 
minutes.

 STATEMENT OF HON. GREGG HARPER, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF MISSISSIPPI

    Mr. Harper. Thank you, Chairman Fleming, Ranking Member 
Sablan and distinguished Subcommittee Members. Thank you for 
this opportunity to come and testify regarding H.R. 588, 
legislation that I introduced to redesignate the Noxubee 
National Wildlife Refuge as the Sam D. Hamilton Noxubee 
National Wildlife Refuge. This bill is a companion piece to S. 
266 introduced by Senator Thad Cochran which passed the Senate 
on February 17, 2011. It is my understanding there are no 
differences between S. 266 and this bill. H.R. 588 honors Mr. 
Sam D. Hamilton, a lifetime conservationist and a great man who 
served more than 30 years at the Fish and Wildlife Service, 
ultimately rising to the position of Director in December of 
2009.
    As the panel is aware, the Refuge System was created in 
1903 and has 548 national wildlife refuges and wetland 
management districts that are home to some 700 species of 
birds, 220 mammals and 280 threatened or endangered species. 
The Noxubee National Wildlife Refuge is located in East Central 
Mississippi. It was established in 1940 and consists of 48,000 
acres inhabited by a variety of game and nongame fish and 
wildlife, including quail, deer, turkey, an endangered 
woodpecker, wood stork, American alligator, bald eagle and 
wintering waterfowl. Approximately 170,000 people visit the 
refuge annually and enjoy hunting, fishing, hiking and other 
outdoor and educational activities.
    Mr. Hamilton has a long and personal history with the 
refuge. A native of Starkville, Mississippi, he recalled during 
his confirmation hearing testimony that he caught his very 
first fish at the Noxubee National Wildlife Refuge at the age 
of five and began his conservation career there as an employee 
at the age of 15. Sam called the Refuge System the finest 
collection of public lands and waters dedicated to fish and 
wildlife conservation in the world. Upon graduation from 
Mississippi State University, Sam started a 30-year career at 
the Fish and Wildlife Service. He worked in service field 
offices and Washington, D.C. headquarters, served extended 
details to the House Merchant Marine and Fisheries Committee 
and the Association of Fish and Wildlife Agencies and was a 
special assistant in the director's office.
    He was selected to be the Fish and Wildlife Service's first 
state administrator in Austin, Texas, to work with state and 
local governments and private landowners on statewide 
conservation issues, and he served as the Fish and Wildlife 
Service's Regional Director for the Southeast Region. On 
September 1, 2009, Sam D. Hamilton was sworn in as the 
fifteenth director of the U.S. Fish and Wildlife Service. Sam 
passed away on February 20, 2010. Honoring Sam by renaming the 
refuge would be a tribute to his remarkable career and 
commitment to conservation. The National Fish and Wildlife 
Foundation recently provided a $100,000 grant to the friends of 
Noxubee Refuge that will fund new signs and capital 
improvements for the refuge, as well as a scholarship and 
education funding in honor of Sam. This grant will allow the 
name change to occur without the Federal Government incurring 
those costs. I would like now to ask for unanimous consent to 
submit a letter for the record from the ex-National Fish and 
Wildlife Foundation Executive Director, Jeff Trandahl, which 
outlines this grant.
    Dr. Fleming. The gentleman asks for unanimous consent. If 
there are no objections, so ordered.
    [NOTE: The National Fish and Wildlife Foundation letter 
submitted for the record can be found at the end of Mr. 
Harper's prepared statement.]
    Mr. Harper. Chairman Fleming, Ranking Member Sablan and 
Members of the Subcommittee, thank you again for the 
opportunity to testify before you today regarding H.R. 588. I 
look forward to working with you to ensure this legislation is 
signed into law to remember a man who truly devoted his life 
and career to the ideals formed during his early days at the 
Noxubee National Wildlife Refuge. I thank you and welcome any 
questions that the Subcommittee may have.
    [The prepared statement of Mr. Harper follows:]

       Statement of The Honorable Gregg Harper, a Representative 
         in Congress from the State of Mississippi, on H.R. 588

    Chairman Fleming, Ranking Member Sablan, and members of the 
Subcommittee, thank you for the opportunity to testify today regarding 
H.R. 588, legislation I introduced to redesignate the Noxubee National 
Wildlife Refuge as the Sam D. Hamilton Noxubee National Wildlife 
Refuge. This bill is a companion piece to S. 266, introduced by Senator 
Thad Cochran, which passed the Senate on February 17, 2011. H.R. 588 
honors Mr. Sam D. Hamilton, a lifetime conservationist and a great man 
who spent 30 years at the Fish and Wildlife Service, ultimately rising 
to Director in 2009.
    As this panel is aware, The Refuge System was created in 1903 and 
has 548 national wildlife refuges and 37 wetland management districts 
that are home to some 700 species of birds, 220 mammals, and 280 
threatened or endangered species.
    The Noxubee National Wildlife Refuge is located in east-central 
Mississippi. It was established in 1940 and consists of 48,000 acres 
inhabited by a variety of game and non-game fish and wildlife including 
quail, deer, turkey, the endangered red-cockaded woodpecker, wood 
stork, American alligator, bald eagle and wintering waterfowl. 
Approximately 170,000 people visit the Refuge annually and enjoy 
hunting, fishing, hiking and other outdoor and educational activities.
    Mr. Hamilton has a long and personal history with the Refuge. A 
native of Starkville, Mississippi, he recalled during his confirmation 
hearing testimony--he caught his first fish at the Noxubee National 
Wildlife Refuge at age 5 and began his conservation career there as an 
employee at age 15. Sam called the Refuge System the ``finest 
collection of public lands and waters dedicated to fish and wildlife 
conservation in the world.''
    Upon graduation from Mississippi State University, Sam started a 
30-year career at the Fish and Wildlife Service. He worked in Service 
field offices and Washington, D.C. headquarters, served extended 
details to the House Merchant Marine and Fisheries Committee and the 
Association of Fish and Wildlife Agencies, and was a special assistant 
in the Director's office. He was selected to be the Fish and Wildlife 
Service's first state administrator in Austin, Texas to work with state 
and local governments and private landowners on statewide conservation 
issues and he served as the Fish and Wildlife Service's Regional 
Director for the Southeast Region. On September 1, 2009, Sam D. 
Hamilton was sworn-in as the 15th Director of the U.S. Fish and 
Wildlife Service.
    Sam passed away on February 20, 2010. Honoring Sam by renaming the 
Refuge would be a tribute to his remarkable career and commitment to 
conservation. The National Fish and Wildlife Foundation recently 
provided a $100,000 grant to the Friends of Noxubee Refuge that will 
fund new signs and capital improvements for the Refuge, as well as 
scholarship and education funding in honor of Sam. This grant will 
allow the name change to occur without the federal government incurring 
these costs. I would like to submit a letter for the record from the 
National Fish and Wildlife Foundation Executive Director, Jeff 
Trandahl, which outlines this grant.
    Chairman Fleming, Ranking Member Sablan, and members of the 
Subcommittee, thank you again for the opportunity to testify before you 
today regarding H.R. 588. I look forward to working with you to ensure 
this legislation is signed into law to remember a man who devoted his 
life and career to the ideals formed during his early days at the 
Noxubee National Wildlife Refuge. Thank you, and I welcome any 
questions the committee may have.
                                 ______
                                 
    [The letter from the National Fish and Wildlife Foundation 
submitted for the record by Mr. Harper follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Dr. Fleming. I thank the distinguished witnesses and 
excellent testimonies of my colleagues and friends this 
morning. As is our tradition, we do not normally have a round 
of questions for our colleagues; however, I will open the table 
up for any specific questions that Members may have. If not, 
then our distinguished witnesses are excused. Thank you for 
your time.
    Mr. Harper. Thank you, Mr. Chairman.
    Mr. Jones. Thank you, Mr. Chairman.
    Dr. Fleming. I am sorry. Do we have one? I am sorry.
    Ms. Bordallo. Thank you, Mr. Chairman. I just want to state 
that I am in support of all of these bills, in particular, H.R. 
306 authored by Mr. Jones. I am very much in favor of horses 
and very interested in their well-being. Thank you.
    Mr. Jones. Thank you, ma'am. Thank you.
    Dr. Fleming. I thank the gentlelady from Guam. No further 
questions? Then our witnesses are excused. Thank you for your 
time and service. We will ask the second panel of witnesses to 
move forward. OK. It appears that our second panel is well-
positioned so we will move forward. We are now ready for our 
second panel. This panel includes Mr. Greg Siekaniec, the U.S. 
Fish and Wildlife Service's Assistant Director for the National 
Wildlife Refuge System; Dr. Roger Mann, Professor of Marine 
Science at the Virginia Institute of Marine Science; Dr. 
Michael Hutchins, Executive Director of the Wildlife Society; 
and Ms. Karen McCalpin, Executive Director of the Corolla Wild 
Horse Fund. So of course the procedure here is you have five 
minutes each. We ask you to keep your remarks within the five 
minute window. When you see the yellow light, that means you 
have one minute left, and try to conclude, of course, your 
comments at the end of the five minute period. So I would like 
to first recognize Mr. Siekaniec. Five minutes, sir.

   STATEMENT OF GREG SIEKANIEC, ASSISTANT DIRECTOR, NATIONAL 
                     WILDLIFE REFUGE SYSTEM

    Mr. Siekaniec. Good morning, Chairman Fleming, Ranking 
Member Sablan and distinguished Members of the Subcommittee. I 
am Greg Siekaniec, presently the Acting Deputy Director of the 
U.S. Fish and Wildlife Service within the Department of the 
Interior. I appreciate the opportunity to appear before the 
Subcommittee today to present the Department's testimony on 
H.R. 306, the Corolla Wild Horse Protection Act, and H.R. 588 
and S. 266, bills that would rename the Noxubee National 
Wildlife Refuge after our late director, Sam D. Hamilton. As 
outlined more fully in my written statement, the Department 
opposes passage of H.R. 306 and supports passage of H.R. 588. 
H.R. 306 would require the Secretary of the Interior to enter 
into an agreement to provide for management of horses in and 
around the Currituck National Wildlife Refuge.
    The bill mandates a herd of not less than 110 horses in and 
around the refuge and severely limits the Service's ability to 
manage these horses. Currituck National Wildlife Refuge was 
established to protect and preserve migratory birds and other 
wildlife resources. Native species that depend upon this 
coastal barrier island ecosystem include waterfowl, wading 
birds, shore birds, raptors, mammals, reptiles, amphibians and 
a variety of plants. The refuge provides habitat for endangered 
species such as piping plover and sea turtles. The Service 
views wild horses as feral domestic animals. On the refuge, 
horses compete with native wildlife species for resources and 
often negatively impact habitat. For example, horses trample 
and consume plants, removing food and shelter for native 
species. Horses are also known to facilitate the introduction 
of invasive weeds.
    H.R. 306 would weaken the Service's ability to accomplish 
the refuge's purposes. Under the bill, the Service will no 
longer be able to place its highest management priorities at 
the refuge on migratory bird management or endangered species 
protection. The bill also limits the Service's management 
discretion on the refuge by restricting our ability to close 
areas, remove horses or provide grazing opportunities 
beneficial to wildlife within enclosed areas. The Service also 
questions whether the area can sustain 110 or more horses. This 
concern is heightened by ongoing development of private land 
which continues to diminish the quantity of suitable habitat 
outside the refuge. Maintaining a horse herd may eventually 
prevent us from fulfilling the purposes for which the refuge 
was established. Last, we view H.R. 309 as unnecessary because 
there is already a successful horse management plan in place. 
The current version of the Currituck Outer Banks Wild Horse 
Management Plan was reviewed and approved in partnership with 
the Corolla Wild Horse Fund, the County of Currituck and the 
North Carolina National Estuarine Research Reserve in 2007. For 
these reasons, the Department opposes passage of H.R. 306.
    H.R. 588 and S. 266 would rename the Noxubee National 
Wildlife Refuge the Sam D. Hamilton Noxubee National Wildlife 
Refuge. We greatly appreciate Representative Harper's and 
Senator Cochran's efforts to honor our late director with these 
bills. I would like to say a few words about Sam, if I may. 
Sam's vision and commitment to wildlife conservation were 
extraordinary, as you have already heard. He was passionate 
about conservation of natural resources and about the Service's 
mission. He held a deep appreciation for the work done by each 
employee of the Service. Sam worked for over 30 years on a wide 
variety of positions that spanned field work in the marshes of 
Mississippi to policy work in the headquarters office in 
Washington, D.C.
    He served for many years as the Southeast Regional Director 
before being nominated and confirmed as the Service's Director 
in 2009. Sam's tenure as director, though brief, was guided by 
his strongly held belief that no single entity, whether 
Federal, state or private, can ensure the sustainability of the 
nation's fish and wildlife resources working independently. He 
worked toward building collaborative partnerships to develop 
bold ideas and solutions to the challenges facing the nation's 
wildlife. His views and approaches toward conservation resonate 
deeply within the Service to this day. With regards to Noxubee 
National Wildlife Refuge, there is no doubt that Sam had a 
special place in his heart for this refuge. He grew up close to 
the refuge in Starkville, Mississippi.
    He caught his first fish there with his father at age of 
five. Sam began his career in conservation with the Youth 
Conservation Corps at Noxubee Refuge. Although it is generally 
the policy of the Service not to recommend name changes after 
individuals, in recognition of Sam's contributions, we are all 
honored that Congress is actually considering honoring one of 
our own in the Fish and Wildlife Service and the Department 
supports H.R. 588 and S. 266. In closing, the Administration 
appreciates the Subcommittee's continued leadership and support 
for the conservation of the nation's wildlife and our National 
Wildlife Refuge System. I thank you for the opportunity to be 
here and testify today. I would be happy to answer any 
questions the Subcommittee may have.
    [The prepared statement of Mr. Siekaniec follows:]

         Statement of Greg Siekaniec, Acting Deputy Director, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

INTRODUCTION
    Chairman Fleming and Members of the Subcommittee, I am Greg 
Siekaniec, Acting Deputy Director of the U.S. Fish and Wildlife Service 
(Service), within the Department of the Interior (Department).
    I appreciate the opportunity to appear before the Subcommittee 
today to testify on two bills of interest to the Service: H.R. 306 the 
Corolla Wild Horses Protection Act and H.R. 588, a bill to rename the 
Noxubee National Wildlife Refuge the Sam D. Hamilton Noxubee National 
Wildlife Refuge. We greatly appreciate the Subcommittee's continued 
leadership and support for the conservation of the nation's wildlife 
and our National Wildlife Refuge System.
    As outlined below, the Department opposes passage of H.R. 306 and 
supports passage of H.R. 588.
H.R. 306, THE COROLLA WILD HORSES PROTECTION ACT
    H.R. 306, the Corolla Wild Horses Protection Act, would require the 
Secretary of the Interior to provide for management of horses in and 
around the Currituck National Wildlife Refuge. As discussed below, the 
Administration opposes this legislation.
    Currituck National Wildlife Refuge was established in 1984 and is 
located on the northern end of North Carolina's Outer Banks. The refuge 
was established to preserve and protect the coastal barrier island 
ecosystem, and refuge lands are managed to provide wintering habitat 
for waterfowl and to protect endangered species such as piping plover, 
sea turtles, and sea beach amaranth. Various types of wading birds, 
shorebirds, waterfowl, raptors, mammals, reptiles, and amphibians 
common to the eastern United States, are found on the refuge. The 
refuge consists of six separate units all located between Corolla, 
North Carolina, and the state boundary between North Carolina and 
Virginia.
    H.R. 306, the ``Corolla Wild Horses Protection Act,'' would require 
the Secretary of the Interior to enter into an agreement with the 
Corolla Wild Horse Fund, a local nonprofit corporation, the County of 
Currituck, and the State of North Carolina to provide for management of 
horses in and around the Currituck National Wildlife Refuge. This 
mandated agreement must allow a herd of not less than 110 horses in and 
around the refuge, provide for management of the horses, and provide 
for the introduction of a small number of horses from Cape Lookout 
National Seashore, as necessary, to maintain genetic viability of the 
herd. Additionally, the bill provides no funding for management of 
horses on the refuge.
    H.R. 306 precludes the Secretary from excluding horses from any 
portion of the refuge unless a finding is made that the presence of 
horses on a portion of the refuge threatens the survival of an 
endangered species for which such land is designated as critical 
habitat, the finding is based on a credible peer-reviewed scientific 
assessment, and the Secretary provides a period of public notice and 
comment on that finding.
    The Department has significant concerns with H.R. 306, and opposes 
its passage. Currituck National Wildlife Refuge was established to 
manage for specific trust wildlife species including waterfowl, 
migratory birds, and endangered species. The Service views wild horses, 
as defined in 50 CFR 30.11(a), as feral domestic animals. On Currituck 
National Wildlife Refuge, horses compete with native wildlife for 
limited resources and horses negatively impact habitat. H.R. 306 would 
subrogate the refuge's purposes as the Service will no longer be able 
to place its highest priority on managing wildlife such as migratory 
birds and endangered species. The bill fails to consider the refuge's 
Comprehensive Conservation Plan, which was created with public 
involvement, and it overrides the requirements of the National Wildlife 
Refuge System Administration Act and the Endangered Species Act.
    H.R. 306 would limit the Service's management discretion on the 
refuge by restricting our ability to close areas, remove horses, or 
provide grazing opportunities beneficial to wildlife within enclosed 
areas. For example, research is currently underway to assess the 
impacts of deer, pigs, and horses to refuge habitats. Such research 
requires excluding these species from areas to determine the extent of 
their impacts. H.R. 306 would compromise this study by precluding 
closure of these areas to horses, and eliminate future habitat impact 
research needed to meet the objectives for which the refuge was 
established. The requirement to show the presence of horses on a 
portion of the refuge threatens the survival of an endangered species--
based on a peer-reviewed scientific assessment involving a public 
comment period--will require time and substantial resources that are 
currently not available at the refuge. The refuge has over 400 native 
wildlife species it is responsible for monitoring and sustaining with 
five staff stationed at Mackay Island National Wildlife Refuge. 
Requiring this level of intensive management for one feral species cuts 
into staff capacity for maintaining the native species for which the 
refuge was established.
    The bill mandates maintaining a herd of not less than 110 free-
roaming wild horses in and around the refuge, with a target population 
of between 120 and 130 free-roaming wild horses. The current Currituck 
Outer Banks Wild Horse Management Plan provides for a maximum of 60 
horses, with the population controlled through adoption, relocation, or 
contraceptive fertility methods. Sustaining a herd of 110 or more 
horses concerns us. We are also concerned that development of private 
land continues to erode the quantity of suitable habitat outside the 
refuge and this trend could cause future horse populations to be even 
more reliant on the refuge, thus further cutting into a habitat base 
intended for native wildlife.
    Lastly, the Department views H.R. 306 as unnecessary because there 
is already a horse management plan in place. The current version of the 
Currituck Outer Banks Wild Horse Management Plan was reviewed and 
approved in partnership with the Corolla Wild Horse Fund, the County of 
Currituck, and the NC National Estuarine Research Reserve in 2007. The 
purpose of this plan is to provide guidelines and general management 
objectives for managing the Currituck Outer Banks horses. The 
management plan provides management flexibility to respond to changing 
circumstances in the area. This flexibility is now paramount as plans 
to construct a mid-Currituck bridge are moving forward. This bridge 
will significantly increase the rate of development and the amount of 
vehicular traffic, changing available habitats for both horses and 
native wildlife to some, currently unknown, extent. Refuge management 
plans have been updated to reflect the presence of horses on the refuge 
property and their use. Plans address the need to monitor horse 
impacts, make management decisions based upon sound wildlife management 
practices to protect critical resources, and to work with partners to 
protect these resources.
    Accordingly, the Department opposes passage of H.R. 306, the 
``Corolla Wild Horses Protection Act.''
H. R. 588 AND S. 266, BILLS TO RENAME NOXUBEE NATIONAL WILDLIFE REFUGE
    H.R. 588 would rename the Noxubee National Wildlife Refuge the Sam 
D. Hamilton Noxubee National Wildlife Refuge. We greatly appreciate 
Representative Harper's efforts to honor our late Director with this 
bill, and appreciate the similar efforts of Senator Cochran. Although 
it is generally the policy of the Service not to name refuges after 
individuals, in recognition of Sam's contributions, the Department 
supports H.R. 588 and the Senate's unanimous passage of the Senate 
companion legislation, S. 266, earlier this year and urges the House of 
Representatives to take the same action.
    Last year, the conservation community lost one of its most dynamic 
leaders with the passing of U.S. Fish and Wildlife Service Director Sam 
D. Hamilton, III. Sam's vision and commitment to wildlife conservation 
were extraordinary. His passion for conservation and the Service's 
mission, along with his deep appreciation for the work done by each 
employee of the Service, are his legacy.
    Sam grew up in Starkville, Mississippi, and not long before his 
passing he recalled catching his first fish with his father at the age 
of five at nearby Noxubee National Wildlife Refuge. Sam began his 
career in conservation with the Youth Conservation Corps at Noxubee 
National Wildlife Refuge, and he had a special place in his heart for 
this refuge. Sam later joined the Service and worked in a number of 
field offices doing on the ground conservation in Alabama, Mississippi, 
Texas, Georgia and two stints in Washington. Prior to his confirmation 
in 2009, Sam served as the Southeast Regional Director. There he 
spearheaded a renewed commitment to the Region's national wildlife 
refuges--public lands that provide a multitude of benefits to wildlife 
and people--and its national fish hatcheries, which play a key role in 
managing the Nation's fisheries and aquatic resources.
    After working for the Service for more than 30 years, Sam was 
nominated to lead the agency as its Director. Sam's tenure as Director, 
while brief, was guided by his strongly held belief that no single 
entity, whether Federal, State, or private, can ensure the 
sustainability of the nation's fish and wildlife resources working 
independently. He worked toward building collaborative partnerships to 
develop bold ideas and solutions to the challenges facing the nation's 
wildlife.
    In general, Service policy establishes criteria for naming a refuge 
and states that first preference is given to a geographic or geologic 
feature that is tied to the identity of the refuge. If there is no such 
significant feature, then the refuge may be named after a wildlife, 
fish, or plant species. The policy specifically states that a refuge 
should not be named after any individual, although buildings, trails, 
and other facilities within the refuge may be named after an individual 
who played a significant role in the establishment or operation of the 
refuge.
    The policy was adopted because the Service recognizes that most 
places have existing names that reflect the natural characteristics and 
history of the landscape. Many existing names have significant cultural 
meaning to local communities. The Service's stewardship of national 
wildlife refuges reflects a land ethic that recognizes local land forms 
and features. Our policy is meant to keep the natural places and wild 
creatures as the focus of our work.
CONCLUSION
    The Service greatly appreciates your leadership, and the interest 
and efforts of the Subcommittee in supporting the conservation of the 
nation's fish and wildlife resources and wildlife-dependent recreation. 
We look forward to working with Subcommittee members as you consider 
these bills and other legislation. I appreciate the opportunity to 
testify today and would be happy to answer any questions.
                                 ______
                                 
    Dr. Fleming. I thank the witness. Next we have Dr. Roger 
Mann. Sir, you have five minutes. Again, when ready.

   STATEMENT OF DR. ROGER MANN, PROFESSOR OF MARINE SCIENCE, 
              VIRGINIA INSTITUTE OF MARINE SCIENCE

    Dr. Mann. Thank you. Mr. Chairman, Members of the 
Committee, it is a pleasure to be here today in response to 
your invitation to provide testimony on H.R. 258, the 
Chesapeake Bay Accountability and Recovery Act. My name is 
Roger Mann. I am a Professor of Marine Science and Director of 
Research and Advisory Services at the Virginia Institute of 
Marine Science. I have been a researcher examining natural 
ecosystems and their management for both ecological services 
and the provision of sustained harvest for 35 years, the last 
25 of those in the Chesapeake Bay with particular emphasis on 
oyster restoration. The comments that I present today represent 
not just my own, but those of a strong consensus of colleagues 
who I polled in preparing this testimony.
    Collectively, their expertise represents several hundred 
person years of direct experience in Chesapeake Bay science, 
management and policy. In my short statements I wish to 
highlight three points.
    Adaptive management. The words are in the bill. Adaptive 
management is a dynamic and responsive process that includes 
stakeholder participation, setting of goals, monitoring, 
modeling, experimentation, research, continual reevaluation 
with modification of end points. It is an iterative, dynamic 
process, it is not static. You have to move toward the goal by 
the methods possible. With respect to the Chesapeake Bay 
restoration effort, the required dynamic and responsive process 
would be much improved by reengagement of the science 
community. This is a common answer when I ask my colleagues 
what can we do? They say we need to be reengaged, we need to be 
better engaged.
    Finally, constructive peer-review is the backbone of 
science. It is the backbone of the National Science Foundation, 
it is the backbone of all science. Appointment of an 
independent evaluator, and this is not a new idea here, for Bay 
restoration is essential if we are only going to have the very 
best science guiding how we get the best with the limited 
amount of funds that we have available in these difficult 
economic times. The need to restore and maintain the Bay was 
formalized in 1983 as a partnership between the Federal 
Government and the Bay partners with, ``this is an ongoing 
commitment to share responsibility for management decisions and 
resources regarding the high priority issues of the Chesapeake 
Bay''. How do we maximize progress toward restoration goals? We 
do it, again, through a responsive dynamic process.
    In the early days of the Bay program this was realized by 
an action committee of scientific involvement, a robust 
scientific technical and advisory committee, researchers and a 
small, but efficient, Chesapeake Bay program whose directive 
was to support the staff. Again, reengagement. We need to go 
back to this base clean, mean model. The baseline of 
environmental challenges is not moving in the Bay because it is 
not only stressed by population growth, but also by sea level 
rise and climate changes. The baseline moves, you must move 
with it. Restoration goals must therefore be responsive. In 
practically all applied economic, social, engineering and 
scientific endeavors, the current approach is to employ 
numerical models. These both assimilate prior knowledge and 
they provide guidance.
    The Bay Monitoring Program is extraordinarily rich in data 
sets that can allow us to do this. The challenge that presents 
itself to us at the moment in terms of where we go between the 
Bay program and the Bay scientific community is to do a better 
job of making the existing models work better. The TMVL one is 
a good example. It is about making these things work better and 
making them accurate and understandable to a nontechnical 
community that uses them. This is where we should be investing. 
The current generation of models is complex, but they are 
getting better and their costs are going down. One only has to 
look at the advances we have made in tide surge models over the 
last five to 10 years. We can predict to street level accuracy 
now with these models precisely what happened in Hurricane 
Isabelle. What a marvelous forecasting tool.
    We need to invest. We must not confuse activity with 
accomplishment. We need to refocus, when necessary. We need to 
incorporate new findings and engage new talent. It is an 
iterative process. H.R. 258 proposes appointment of an 
independent evaluator. Again, not a new idea. This is in the 
Executive Order, and when this subject was last here in 
testimony in June of 2009, this was also debated. Critical 
independent peer-review is the backbone of science. It is the 
key to restoring what we want to do and to do it with the most 
cost-efficient approach. The current Bay program has grown. It 
is large, it has complex infrastructure, and, in my opinion, is 
lacking in flexibility.
    If you reengage the scientific community, you will be able 
to make it more efficient. Again, the National Science 
Foundation does this all the time. The states, in both their 
academic institutions and their state agencies, are with 
reservoirs of enormous talent that can be engaged with short 
lead times and high cost efficiency because, in many instances, 
as these tasks emerge that tell us where to go, many of the 
infrastructures are already in place and the talent is already 
in place, we should take it. We should take advantage of this. 
Independent review by a proposed office of independent 
evaluator I think will just underscore these options and 
highlight these opportunities. We need to go there.
    In summary, I thank the Committee for the opportunity to 
provide testimony, and I applaud the goals of H.R. 258 by 
developing a crosscutting budget. In these times of 
extraordinary debates about where our national budget is going, 
this is absolutely critical. We need it as a tool to evaluate 
progress, and we need to appoint an independent evaluator. This 
is long overdue. The challenges remain significant, but I think 
with a concerted effort to reengage the science community and 
use these state-of-the-art and proactive modeling tools as 
drivers, these do work and adopt a more flexible dynamic 
approach. We can make progress. We can make a lot of progress. 
Let us proceed. Thank you. This completes my testimony.
    [The prepared statement of Dr. Mann follows:]

 Statement of Professor Roger Mann, Director for Research and Advisory 
Services, Virginia Institute of Marine Science, College of William and 
             Mary, Gloucester Point, Virginia, on H.R. 258.

    Mr. Chairman, Members of the Committee, it is a pleasure to be here 
today in response to your invitation to provide testimony on H.R. 258: 
the Chesapeake Bay Accountability and Recovery Act of 2011.
    My name is Roger Mann. I am a Professor of Marine Science and 
Director for Research and Advisory Services, Virginia Institute of 
Marine Science, College of William and Mary. I have been a researcher 
examining natural ecosystems and their management for both ecological 
services and sustained harvest of commercially valuable products for 
thirty five years. For the past twenty five I have been active in 
fisheries resource management and restoration in the Chesapeake Bay, in 
particular in the field of oyster restoration. The comments that I 
present today represent not just my own, but a strong consensus of 
colleagues with whom I have discussed this important bill. 
Collectively, their expertise amounts to several hundred person years 
of direct experience in Chesapeake Bay science, management, and policy.
    In my testimony today I wish to highlight three statements:
        1.  Adaptive management is a dynamic and responsive process 
        that includes stakeholder participation, setting of goals, 
        monitoring, modeling, experimentation, research, and continual 
        re-evaluation with modification of end points and goals as 
        directed by this iterative process.
        2.  With respect to the Chesapeake Bay restoration effort, the 
        required dynamic and responsive process would be much improved 
        by a fresh re-engagment of the science community.
        3.  Constructive peer review is the backbone of science. 
        Appointment of an Independent Evaluator for bay restoration is 
        essential to insure that only the very best science guides 
        these actions.
    The Chesapeake Bay has been described as a National Treasure--a 
description with which I wholeheartedly agree. The largest estuary in 
the continental United States, the bay watershed includes over 100,000 
streams, 150 major rivers, and 11,500 miles of shoreline in a 64,000 
square mile footprint in the states of New York, Delaware, Maryland, 
West Virginia, the Commonwealths of Pennsylvania and Virginia, and the 
District of Columbia. The bay watershed is also home to approxmately 
15,000,000 people and an ecosystem under significant stress. Over 4.4 
million acres have been developed, at least half of that in the past 
fifty years. Agricultural, urban and industrial development have 
inevitable impacts on receiving waters. Direct expolitation of living 
resources and modification of bay shorelines to shipping channels have 
lasting signatures.
    The need to restore and maintain the Chesapeake Bay has long been 
recognized and enjoys wide public support. Formalized through the 1983 
Chesapeake Bay Agreement and susbequent instruments, the bay partners 
(the federal government, represented by the Environmental Protection 
Agency, joined the State of Maryland, and the Commonwealths of 
Pennsylvania and Virginia, and the District of Columbia) commited to 
``share the responsibility for management decisions and resources 
regarding the high priority issues of the Chesapeake Bay.'' This is an 
ongoing commitment. The task before us in these difficult economic 
times may be stated thus: ``How do we maximize progress towards 
restoration goals per dollar invested?''
    Maximizing progress in restoration requires a responsive, dynamic 
structure to support actions that lead to progress by the state 
partners. Progress in the early days of the Chesapeake Bay Program was 
realized by coordinated actions of external scientific involvement, a 
robust Scientific Technical Advisory Committee, Bay researchers, and a 
small but efficient Chesapeake Bay Program whose directive was to 
support the states. A return to this model requires re-engagement of 
the greater Bay scientific community in an open review process.
    The baseline of environmental challenges is moving as the Bay is 
stressed not only by population growth but also by sea level rise and 
climate change. Restoration goals and the means to attain them must be 
flexible in response. In practically all applied economic, social, 
engineering and scientific endeavors the current approach is to employ 
numerical models to evaluate current knowledge and guide project 
actions. Continuing revision of the goals and actions are expected as 
more information emerges. The Bay monitoring programs have produced 
enormously rich data sets that can be used to assess progress to date 
and plan future action. The role of the Chesapeake Bay Program, and the 
Bay scientific community is to do a better job of making existing 
numerical models both more accurate and understandable to the non-
technical Bay community who are also the stakeholders in the process. 
This can be achieved with appropriate resources.
    The current generation of numerical models is complex, but their 
development times and costs are decreasing while the output is 
increasingly sought for societal purposes--progress in tidal surge 
models associated with storm events provide a good example. Engaging a 
wide representation of the science community to build such proactive 
tools is tractable, but progress also requires a commitment to change 
what does not work, redefine acceptable outcomes if required, not 
confuse activity with accomplishment, refocus efforts outside of the 
original goals if new options emerge in the management process, 
incorporate new findings, and engage new talent where talent is needed. 
Bay restoration must be progressive science, not just progressive 
bureaucracy and policy.
    H.R. 258 proposes appointment of an Independent Evaluator. 
Critical, independent, open, constructive peer review is the backbone 
of scientific progress. Peer review is the key to achieving restoration 
goals and doing it with highest cost efficiency. The current Bay 
Program effort is large with complex infrastructure and lacking in 
flexibility. Re-engaging the scientific community in a flexible, 
dynamic approach to restoration actions will achieve better results. 
The states, in both academic institutions and the state agencies, are 
reservoirs of enormous talent that can be engaged with short lead times 
and high cost efficiency because in many instances the task specific 
talents and infrastructure already exist within those agencies. 
Independent review by the proposed Office of the Independent Evaluator 
will, I have no doubt, highlight these opportunities.
    In summary, I again thank the Committee for the opportunity to 
provide testimony. I applaud the goals stated in H.R. 258 of developing 
a cross cutting budget as a tool to evaluate progress in Bay 
restoration activity and appoint an Independent Evaluator. The 
challenges are significant, but with a concerted effort to re-engage 
the science community, use state of the art proactive modeling tools as 
drivers, and adopt a more flexible, dynamic and responsive operations 
structure these challenges can be met. Let us proceed. This completes 
my testimony.
                                 ______
                                 
    Mr. Wittman [presiding]. Thank you, Dr. Mann. We appreciate 
that, and we are going to move on next to Dr. Hutchins and 
remind you that the lighting system there starts off with five 
minutes, at the yellow light you are at one minute, and we 
would like for you as best you can to stay within those five 
minutes. So, Dr. Hutchins, thank you so much for joining us and 
we look forward to your testimony.

              STATEMENT OF DR. MICHAEL HUTCHINS, 
            EXECUTIVE DIRECTOR, THE WILDLIFE SOCIETY

    Dr. Hutchins. Mr. Chairman and distinguished Committee 
Members, my name is Michael Hutchins and I am the Executive 
Director and CEO of the Wildlife Society. We appreciate the 
opportunity to comment on H.R. 306, the Corolla Wild Horse 
Protection Act. Funded in 1937, the Wildlife Society is a 
nonprofit scientific and educational association representing 
over 10,000 professional wildlife biologists and managers. The 
Wildlife Society defines wildlife as living organisms that are 
not humans, domesticated animals or plants. Wild animals' 
ancestors have never been domesticated or modified by selective 
breading, where as feral animals' ancestors were once 
domesticated but are now free-roaming in the absence of human 
care.
    Coming from domesticated stock, the wild horses in America 
are actually feral, or not part of the native ecosystem. 
Although many nonextinct horse lineages have all been North 
American, today's feral horses are not members of the same 
species as North American fossil specimens. Invasive or non-
native species are among the most widespread and serious 
threats to the integrity of native wildlife populations because 
they invade and degrade natural ecosystems. The feral horses 
that roam freely along the Atlantic Coast are examples of such 
species. They are iconic and much loved by some, but they 
compete with native species, damage habitats and require 
focused and sustained management.
    Herds of feral horses cause significant changes to barrier 
islands through trampling of soils and vegetation, selectively 
grazing palatable plants and altering the distribution of 
nutrients in the ecosystem. Overgrazing affects plant community 
dynamics and renders sensitive dunes and marshlands more 
vulnerable to erosion by severely reducing vegetative cover. 
Trampling of nesting sites has a direct impact on ground 
nesting birds, which are numerous on the offshore islands. 
These effects are of particular concern in the context of 
Currituck National Wildlife Refuge which was established in 
1984 to preserve and protect coastal barrier island ecosystems. 
Refuge lands are managed to provide wintering habitat for 
waterfowl and to protect endangered species, such as piping 
plovers and sea turtles.
    Various types of birds, mammals, reptiles and amphibians 
are also found on the refuge. H.R. 306 puts the Service in the 
difficult position of being legislatively required to manage 
for the conservation of native wildlife and habitat on the one 
hand, and to support a non-native invasive species on the 
other. The Wildlife Society has several concerns with this 
legislation. First, although the current management plan calls 
for a maximum herd of 60, this has not been achieved since 
2002. The 2010 count was 115 with the population on a clear 
upward trend. We are concerned that the herd will soon 
overshoot the legislation's maximum population size of 120. In 
addition, the effects of the current herd size on the refuge 
are not well-documented.
    Such a herd size should not be legislatively mandated until 
its effects on the area's native wildlife and habitat are made 
clear. Second, it is not clear what cost-effective management 
means in Section 2 of the Act. Maintaining a stable population 
of feral horses will likely require a long-term combination of 
expensive fertility control and removal of excess horses. The 
cost of managing a non-native species should not come at the 
expense of our native species. Finally, the legislation would 
place unnecessary restrictions on the Fish and Wildlife 
Service's ability to exclude feral horses from sections of the 
refuge. As written, the bill would only allow removals of feral 
horses that are threatening the survival of an endangered 
species for which such land is designated as critical habitat.
    Expert refuge staff trained in wildlife management and 
conservation should have the discretion to exclude horses from 
any area of the refuge when they are causing undesirable 
effects. Furthermore, the Act is unnecessary because there is 
already a horse management in place, as already pointed out. We 
strongly recommend that the herd be kept at the 60 horse 
maximum currently required by the existing management plan, 
thus minimizing the negative impacts on native wildlife and 
habitat. Ideally, feral horses should be removed from the 
refuge entirely to allow the native wildlife there to thrive. 
If this is not done, however, the areas from which feral horses 
are excluded should be increased to include any sensitive 
habitats on the island. Thank you for the opportunity to 
testify and for considering the views of wildlife 
professionals. I would be happy to answer any questions you 
might have at this time.
    [The prepared statement of Dr. Hutchins follows:]

        Statement of Michael Hutchins, Executive Director/CEO, 
    The Wildlife Society on H.R. 306, H.R. 588, S. 266 and H.R. 285

    Mr. Chairman:
    Thank you for the opportunity to testify before the House Natural 
Resources Committee, Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs. My name is Michael Hutchins, and I am the Executive 
Director and CEO of The Wildlife Society.
    We appreciate the opportunity to submit testimony regarding H.R. 
306, the Corolla Wild Horse Protection Act. Founded in 1937, The 
Wildlife Society is a non-profit scientific and educational association 
of over 10,000 professional wildlife biologists and managers, dedicated 
to excellence in wildlife stewardship through science and education. 
Our mission is to represent and serve the professional community of 
scientists, managers, educators, technicians, planners, and others who 
work actively to study, manage, and conserve wildlife and its habitats 
worldwide.
    TWS seeks a world where people and wildlife co-exist, where 
biological diversity is maintained, and decisions affecting the 
management, use, and conservation of wildlife and their habitats are 
made after careful consideration of relevant scientific information and 
with the engagement and support of an informed and caring citizenry. 
TWS defines wildlife as living organisms that are not humans, 
domesticated animals, or plants. Wild animals' ancestors have never 
been domesticated--modified by selective breeding--whereas feral 
animals' ancestors were once domesticated but are now free-ranging in 
the absence of human care. The ``wild'' horses in America are actually 
feral and are not part of the native ecosystem.
    Invasive, or non-native, species are among the most widespread and 
serious threats to the integrity of native wildlife populations because 
of their potential to invade and degrade native ecosystems. These 
species present special challenges for wildlife managers because their 
impacts on the native biota are poorly understood by the general 
public, and many people erroneously regard them as a component of the 
natural ecosystem. Feral horses (Equus caballus) that roam freely along 
the Atlantic coast of the U.S. are examples of such species: they are 
iconic and much-loved by some, but damage wildlife habitat and require 
focused and sustainable management practices.
    Although many now-extinct horse lineages evolved in North America, 
today's feral horses are not members of the same species as North 
American fossil specimens. Scientists consider these feral horses to be 
a recent and disruptive addition to North American ecology, rather than 
a native species.
    Herds of feral horses cause significant changes to barrier island 
environments. As large herbivores, they alter landscapes through 
trampling soils and vegetation, selectively grazing palatable plants, 
and altering the distribution of nutrients in the ecosystem. 
Specifically, grazing impacts the distribution and abundance of native 
plant species and affects plant community dynamics (Furbish and Albano 
1994). It may alter net aboveground primary production and belowground 
biomass, produce a network of paths through sensitive systems, and 
affect plant regeneration (Turner 1987). Trampling of nesting sites is 
a direct impact to birds. Indirect impacts to marsh faunal communities 
may also result, including shifts in bird, fish, and invertebrate 
assemblages and abundances as well as changes in interspecific 
interactions (Levin et al. 2002).
    The result of grazing impacts depends on the location of the 
grazing activity (i.e. intertidal versus upland), interspecific 
competition, and herbivory intensity (Furbish and Albano 1994). 
Overgrazing is a major concern on barrier islands, as it has been shown 
to degrade habitat and negatively impact sensitive dunes and marshlands 
by increasing susceptibility to erosion (Seliskar 2003, Keiper 1990). 
Marshes may also be made more vulnerable to erosion and storm damage if 
sediment accretion is impaired by reduced grass density (Turner 1987).
    The effects of overgrazing are of particular concern in the context 
of the National Wildlife Refuge System. The National Wildlife Refuge 
System Improvement Act of 1997 described the mission of the System as 
follows: the Mission of the National Wildlife Refuge System is to 
administer a national network of lands and waters for the conservation, 
management, and where appropriate, restoration of the fish, wildlife, 
and plant resources and their habitats within the United States for the 
benefit of present and future generations of Americans.
    Currituck National Wildlife Refuge, located on the northern end of 
North Carolina's Outer Banks, was established in 1984 to preserve and 
protect the coastal barrier island ecosystem. Refuge lands are managed 
to provide wintering habitat for waterfowl and to protect endangered 
species such as piping plover, sea turtles, and sea beach amaranth. 
Various types of wading birds, shorebirds, waterfowl, raptors, mammals, 
reptiles, and amphibians common to the eastern United States are found 
on the refuge.
    H.R. 306 would make it more difficult for the U.S. Fish and 
Wildlife Service to manage the feral horses on Currituck National 
Wildlife Refuge and hamper the Refuge System's mission. The legislation 
puts the Fish and Wildlife Service in the difficult position of being 
legislatively required to manage for the conservation of native 
wildlife and habitat on the one hand and to support a non-native 
invasive species on the other.
    The Wildlife Society has several concerns with the legislation. 
First, we note that although the current management plan calls for a 
maximum herd size of 60, this has not been achieved since 2002. The 
2010 count was 115, with the horses on a clear upward trajectory. Since 
the Corolla Wild Horse Fund has been unable to manage to the previously 
required level of 60, we are concerned that the herd will soon 
overshoot the legislation's maximum population size of 120. In 
addition, the effects of the current herd size of 115, on the refuge 
and elsewhere, are not documented. Such a herd size should not be 
legislatively mandated until its effects on the area's native wildlife 
and habitat are clear.
    Second, it is not clear what `cost-effective' management means in 
Section 2. Maintaining a stable population of feral horses, which can 
double in population every four years, will likely require a 
combination of fertility control measures and removal of excess horses 
for sale or adoption. The cost of managing a non-native species should 
not come at the expense of native species. In this case, Currituck 
Refuge is unstaffed and unfunded. We fear that the funds necessary to 
manage feral horses on Currituck Refuge will come from Mackay Island 
Refuge, where they could have been used to manage for native wildlife 
or improve hunting or other recreational opportunities for visitors. 
The Corolla area has a strong tradition of waterfowl hunting and 
related recreation, and we would hate to see this compromised for the 
sake of an invasive species.
    Finally, the legislation would place unnecessary restrictions on 
the Fish and Wildlife Service's ability to exclude feral horses from 
sections of the refuge. As written, the bill would only allow removals 
when the feral horses are threatening the survival of an endangered 
species for which such land is designated as critical habitat, as 
documented by a peer-reviewed scientific assessment involving a public 
comment period. Such a process will require time and substantial 
resources that are currently not available at the refuge. Refuge staff, 
trained in wildlife management and conservation, should have the 
discretion to exclude horses from any area of the refuge when they are 
causing undesirable effects. This provision would also effectively 
eliminate the ability of refuge staff to conduct research on the 
impacts of feral horses on habitat and native species by excluding them 
from some areas and then comparing the vegetation structure and 
biological diversity between the exclosure area and areas where feral 
horses are permitted.
    The Corolla Wild Horses Act bill fails to consider the refuge's 
Comprehensive Conservation Plan and overrides the requirements of the 
National Wildlife Refuge System Administration Act and Endangered 
Species Act. Furthermore, it is unnecessary because there is already a 
horse management plan in place. The current version of the Currituck 
Wild Horse Management Plan was reviewed and approved in partnership 
with the Corolla Wild Horse Fund, the County of Currituck, and the NC 
National Estuarine Research Reserve in 2007.
    We strongly recommend that the herd be kept at the 60-horse maximum 
currently required by the Currituck Wild Horse Management Plan. The 
lower number of horses would decrease the effects on native wildlife 
and habitat. Occasionally bringing horses in from the Cape Lookout herd 
will allay any concerns about genetic diversity. Ideally, feral horses 
should be removed from the Refuge to allow the native wildlife there to 
thrive. If this is not done, the areas from which feral horses are 
excluded on the refuge should be increased to include any sensitive 
habitats.
    Feral horse inventories should be performed at sufficient intervals 
to quickly determine whether they are having adverse impacts and 
rapidly implement management actions to control and reduce ecological 
damage. We also support increased funding for scientifically defensible 
assessments of ecosystem conditions that are used to make decisions 
about feral horse management. Such assessments should consider the 
welfare of the feral horses, as well as the ability of the system to 
conserve native plant and animal populations and provide ecosystem 
services--clean air, clean water, and carbon sequestration.
Literature Cited
Furbish, C.E. and M. Albano. 1994. Selective herbivory and plant 
        community structure in a Mid-Atlantic salt marsh. Ecology 
        75(4): 1015-1022.
Levin, P.S., J. Ellis, R. Petrik, and M.E. Hay. 2002. Indirect effects 
        of feral horses on estuarine communities. Conservation Biology 
        16(4): 1364-1371.
Keiper, R.R. 1990. Biology of large grazing mammals on the Virginia 
        barrier islands. Virginia Journal of Science 41(4A): 352-363.
Seliskar, D.M. 2003. The response of Ammophila breviligulata and 
        Spartina patens (Poaceae) to grazing by feral horses on a 
        dynamic Mid-Atlantic barrier island. American Journal of Botany 
        90(7): 1038-1044.
Turner, M.G. 1987. Effects of grazing by feral horses, clipping, 
        trampling, and burning on a Georgia salt marsh. Estuaries 
        10(10): 54-60.
                                 ______
                                 
    Mr. Wittman. Thank you, Dr. Hutchins. We appreciate, again, 
your testimony and we look forward to being able to ask a few 
questions. We are going to move on now to Ms. McCalpin. We 
thank you so much for joining us and want to remind you, too, 
again about our system here of five minutes. We look forward to 
your testimony. Thank you.

 STATEMENT OF KAREN McCALPIN, EXECUTIVE DIRECTOR, COROLLA WILD 
                           HORSE FUND

    Ms. McCalpin. Thank you. Congressman Wittman, Congressman 
Sablan, Members of the Subcommittee, thank you for this 
opportunity to testify in support of H.R. 306. The wild horses 
of North Carolina's Currituck Outer Banks have survived nearly 
five centuries but they cannot survive the critically low herd 
number dictated by the current management plan, as well as a 
scientifically documented dangerous decline in genetic 
diversity. Spanish ships' logs verify horses on the shores of 
North Carolina around 1520. In 1926, there were 5,000 to 6,000 
wild horses all up and down the Outer Banks. Today, the current 
herd of registered Colonial Spanish Mustangs has dwindled to 
108. DNA testing completed in 1992, and again in 2008, by Dr. 
Gus Cothran of Texas, an expert on wild herds, show that the 
Corolla horses have less genetic diversity and have reached a 
genetic bottleneck.
    The Corolla wild horses live on approximately 7,500 acres 
north of Corolla, 2,500 acres of which is Currituck National 
Wildlife Refuge property. The remaining land is privately 
owned. A written management plan was created in 1997. The Fund 
requested at least 100 horses, but the Federal representatives' 
position was zero. After a prolonged and contentious debate, 
the herd size was set at a maximum of 60, a number not based on 
any existing scientific data, but merely a number upon which 
all parties were finally able to agree. In April of 2008, the 
Fund staff formally requested that the herd size be changed to 
a target population of 120 to 130, the minimum number 
recommended by Dr. Cothran. The Fund also requested permission 
to introduce a small number of mares from Shackleford to add 
diversity to a dying gene pool.
    Our request was denied by Fish and Wildlife, citing 
competition for resources, although there is no existing 
scientific data to support their position. A 1997 impact study 
by Drs. Richard and Martha Rheinhardt covered over 11,000 acres 
from the northern end of Back Bay Wildlife Refuge in Virginia, 
south to Corolla. The results showed that horses consumed few 
shrub species and grass species seemed to recover from grazing 
by early summer. No plants eaten by wild horses are included on 
the Federal threatened species list. When determining impact, 
we cannot overlook humans. Thousands of vehicles drive on the 
beach and behind the dunes daily. The fragile dunes are 
negatively impacted by climbing and driving on them.
    It is not the horses that leave trash, deep tire ruts, drop 
oil and other contaminants. Our herd manager maintains a 
database of the wild horses that is updated weekly. The 22 to 
23 harems are evenly distributed over the 7,500 acres. Each 
harem stays in its own home region and generally remains there 
until the end of their life. July 22, 2010 photos taken outside 
the 135-acre refuge fence where 13 horses were forced out on 
March 12 of that year, and photos of the 16'-by-16' exclosures 
show thick vegetation outside the fence. There is no evidence 
of overgrazing in these photos, even in last summer's extreme 
drought conditions. The Corolla Wild Horse Fund is the NGO that 
physically manages and cares for the herd.
    We employ four full-time staff, five seasonal staff and 
utilize a pool of over 30 volunteers. We operate a year-round 
educational facility with 75,000 visitors annually. We are on 
call 24/7, 365 days a year. We rescue and rehabilitate sick and 
injured horses and have placed 38 horses in loving adoptive 
homes from Texas to Maine since September of 2006. We transport 
deceased horses to Raleigh for necropsy, assist in veterinary 
euthanizations in the field and maintain all barrier fences, 
including the cabled fence into the ocean. All expenses related 
to wild horse management are incurred by the Fund with no cost 
to the Federal Government, nor would the implementation of H.R. 
306 create any additional management costs as long as the Fund 
continues to manage the herd.
    In the last year, we have worked cooperatively with 
Currituck County to create and implement several new ordinances 
to protect the horses, collected and tested water, soil and 
plant samples from all areas of the North Beach, distributed 
thousands of handouts regarding the wild horse ordinance and 
coordinated a campaign to designate the Colonial Spanish 
Mustang as the North Carolina state horse. The Fund holds 70 
acres in a conservation easement and our website lists land 
donation as a method of helping to protect and preserve the 
wild horses. Our long-term goal is to hold significant acreage 
in conservation easements. For nearly 500 years, the wild 
horses of Corolla have persevered against all odds.
    I am always moved by their strength, intelligence, beauty 
and iron will to live. These sons and daughters of the sand 
carry a wealth of genetic history that is quickly, not slowly, 
dying. We are already seeing a decline in the number of healthy 
foals being born and an increasing number of horses with 
abnormalities. We are not asking for hundreds of horses, we are 
asking for 120 to 130, the number recommended by scientific 
data generated by an expert in the field, the same number that 
has existed on Federal property at Cape Lookout National 
Seashore for the last 12 years on half the land with no 
documented impact. Raising the allowable herd size alone will 
not solve the issue of our horses being too closely related to 
one another. Introduction of mares from the Shackleford herd is 
the only way to breed new DNA into a gene pool headed for 
certain collapse. Like the wild horses, we are determined and 
we find strength in their presence. They are nobody's horses, 
but they are everybody's horses. I am honored to be their voice 
and ask you today to honor their history and protect their 
future. Please move H.R. 306 forward and save these endangered 
horses for future generations to view, admire and respect. 
Thank you.
    [The prepared statement of Ms. McCalpin follows:]

          Statement of Karen H. McCalpin, Executive Director, 
  Corolla Wild Horse Fund, Inc., Corolla, North Carolina. on H.R. 306

    Chairman Fleming and members of the Subcommittee, my name is Karen 
McCalpin and I am the Executive Director of the Corolla Wild Horse 
Fund. Thank you for the opportunity to testify in support of H.R. 306, 
the Corolla Wild Horses Protection Act. I speak on behalf of the 
citizens of Currituck County, North Carolina, the hundreds of thousands 
of annual visitors who travel to the Outer Banks specifically to view 
the number one tourist attraction--our wild horses, and most 
importantly, I speak for the wild horses who have recently been 
designated by the North Carolina legislature as the North Carolina 
state horse. I would also like to express my gratitude to 
Representative Walter Jones for sponsoring the bill as well as 
cosponsors Representatives Howard Coble, Gerry Connolly, David Price 
and Ed Whitfield.
Background:
    Powerful, intelligent, breathtakingly beautiful, and determined to 
survive--the wild horses of North Carolina's Currituck Outer Banks have 
survived nearly five centuries of fierce hurricanes, unrelenting 
nor'easters, severe droughts, floods, and swarms of biting insects. But 
can they survive the critically low herd number as defined in the 
current management plan as well as a scientifically documented 
dangerous decline in genetic diversity?
    Spanish ships' logs verify horses being brought to the shores of 
North Carolina around 1520. Historians believe that some horses were 
able to survive shipwrecks and swam ashore. Horses were also among the 
heavy cargo shoved overboard in an attempt to refloat ships grounded on 
sand bars, and some were simply left behind when colonies failed.
    Recognized and registered as Colonial Spanish Mustangs in 2007 by 
the international Horse of the Americas Registry (HOA), the wild horses 
now roaming the northernmost Outer Banks have adapted to a very 
specialized diet of coarse salt grass, sea oats, panic grass, American 
beach grass, cordgrass, acorns and persimmons found in five main 
habitat areas. Areas of dune grass, dry grassland, wet grassland, tidal 
fresh water marsh, and maritime forest provide food and shelter. The 
Currituck Sound (a fresh water estuarine system) provides a constant 
source of water, as do numerous ponds, puddles, and manmade canals.
    According to a 1926 National Geographic magazine article entitled 
``Motor Coaching the Outer Banks,'' there were five to six thousand 
wild horses on the 175 mile stretch that makes up the Outer Banks. 
Today, the current herd count has dwindled to 108.
    DNA testing completed in 1992 by Dr. E. Gus Cothran, an 
internationally recognized equine geneticist and expert on wild herds, 
showed that the Corolla horses have ``less genetic diversity than any 
other group of horses.'' In 2008, DNA samples were collected via 
remotely delivered dart for an updated study of the herd's current 
overall genetic health. Dr. Cothran reported that the horses had now 
reached a ``genetic bottleneck,'' with high levels of inbreeding and 
low levels of genetic diversity. Further mitochondrial DNA analysis 
confirmed that the Corolla herd has only one maternal line, while the 
wild Colonial Spanish Mustangs on Shackleford Banks (Cape Lookout 
National Seashore) have four maternal lines. The wild horses on 
Shackleford Banks have been managed at a target population of 120--130 
since the passage of the Shackleford Banks Wild Horses Protection Act 
in 1998. Dr. Cothran generally recommends a herd size of 120--130 as 
the minimum for a feral herd.
    The low Corolla herd size also presents an imminent danger to the 
survival of the horses that goes beyond high levels of inbreeding. When 
the number drops below the absolute minimum of 110, the herd is at 
extreme risk for being completely eradicated by a disease, drought, 
fire, flood, or hurricane. They could easily be gone forever. The 
Corolla horses are already listed as a critically endangered breed by 
the American Livestock Breed Conservancy and the Equus Survival Trust, 
national nonprofit organizations that work to conserve rare breeds. The 
next category is extinction.
    Until 1985, the paved road (NC 12) came to an end at what is now 
the Sanderling Resort in Duck, North Carolina. Only 4 wheel drive 
vehicles could access the next 25 miles to the North Carolina/Virginia 
border. A guard gate ensured that only the few permanent residents or 
their guests went any further. At that time, the wild horses had a 
territory encompassing nearly 13,000 acres. When the road from Duck to 
Corolla was paved in 1985, what was once a remote and rugged wild horse 
sanctuary with a handful of residents exploded with the development of 
thousands of vacation homes.
    By 1989, so many horses had been injured or killed on NC 12 and 
horse/human interactions had become so frequent, a group of concerned 
residents formed the all volunteer Corolla Wild Horse Fund (CWHF). 
Members of the Fund set out to find ways to protect the wild horses. 
After much time, effort, and tears, the twenty or so wild horses left 
in Corolla were rounded up in 1995 and moved to the only remaining area 
left with no paved roads. Referred to as the 4X4 beach or north beach, 
a sound to sea fence was built to keep the horses out of the populated 
areas of Corolla. A partial fence already existed near the North 
Carolina/Virginia border but had to be extended. Cattle guards were 
installed near the end of the paved road and at a gate along the 
northern fence. The cattle guards allow access by vehicles but not 
horses. The two fences are 11 miles apart. There were an unknown number 
of wild horses already inhabiting the north beach when the additional 
twenty were added.
    The wild horses that once called the entire 175 miles of this 
barrier island their home, now live on approximately 7,544.25 acres of 
the north beach. Of that, 4,671.35 acres is privately owned by 
individuals and corporations; 2,495.4 is Currituck National Wildlife 
Refuge property; 326.5 is the North Carolina National Estuarine 
Research Reserve; and 51 acres is owned by the nonprofit Nature 
Conservancy. There are over 1300 houses in the three developed 
subdivisions of Swan Beach, North Swan Beach, and Carova. People reach 
their houses and beach rentals by driving on the beach and over the 
dunes on sand cartways. (Attachment 1--Wild Horse Range Acreage map)
Management Plan:
    A written management plan was created in 1997 by an advisory group 
(Currituck Outer Banks Wild Horse Advisory Board) consisting of 
representatives from the Corolla Wild Horse Fund (CWHF), United States 
Fish and Wildlife Service (USFWS), North Carolina National Estuarine 
Research Reserve (NCNERR), and Currituck County as well as two county 
appointed citizen representatives who reside on the north beach. The 
CWHF requested a herd size of at least 100, in sharp contrast to the 
federal representatives' position of zero. Even though the 1992 genetic 
study had already revealed low genetic diversity, the herd size was 
eventually set at a maximum of 60. This number was not selected based 
on any existing scientific data but was merely a number upon which all 
parties were able to agree after prolonged and contentious debate.
    I began my duties as the first fulltime Executive Director of the 
Fund on September 4, 2006. After reading the management plan and as a 
life-long horsewoman I was stunned to see such a low maximum herd size. 
The management plan was due to be reviewed and signed again by the end 
of the year. Although I immediately recognized that a wild herd of 60 
was not viable, being so new to the position, I had no scientific data 
available to support a request for a larger herd number. However, 
because the plan reads, ``This plan will be reviewed and updated at 
least on a five year cycle. All signatories recognize that any 
management plan is a living document and will change based upon current 
circumstances,'' I felt that once I acquired data from a credible 
source, the management plan could be changed ``based on current 
circumstances'' and ``that all signatories recognize that any 
management plan is a living document.''
    In April of 2008, the Fund staff formally requested that the 
maximum herd size be changed to the scientific number recommended by 
Dr. Cothran in relation to his DNA findings from the most recent DNA 
samples. The Fund also requested permission to introduce a small number 
of mares from Shackleford Banks to begin to restore diversity to the 
dying gene pool. USFWS and the NCNERR denied the request citing the 
potential for damage to the refuge and reserve as a result of a larger 
herd, although there is no existing scientific data to support their 
denial. The Fund was told to continue to permanently remove healthy 
horses for adoption and dart healthy breeding age mares with 
contraceptives to work toward a herd size of 60. (Corolla: 7,544.25 
acres; 60 horses; Shackleford: 3,000 acres 120--130 horses)
    I turned to Congressman Jones for assistance and he traveled to 
Corolla in October of 2008 to meet with the Currituck Outer Banks Wild 
Horse Advisory Board. At this meeting, USFWS verbally agreed to allow 
the herd to remain at the current level then (100) until a multi-year 
exclosure study funded by North Carolina State University and USFWS 
could be conducted and the data analyzed. They again denied our request 
to change the written management plan and to date it remains at a 
maximum herd size of 60.
Impact:
    Before making my request for an increase in herd size, I spoke 
extensively with Dr. Sue Stuska, National Park Service Wildlife 
Biologist and Carolyn Mason, President of the nonprofit Foundation for 
Shackleford Horses. The Foundation, a small and unstaffed organization, 
works cooperatively through a Memorandum of Understanding with the 
National Park Service to manage the herd of wild Colonial Spanish 
Mustangs living on 3,000 acres of Shackleford Banks (an east/west 
island that is part of Cape Lookout National Seashore near Beaufort, 
NC.) These horses are managed in accordance with the Shackleford Banks 
Wild Horses Protection Act as previously mentioned. This Act was also 
sponsored by your colleague, Walter Jones. In 1997, their herd was in 
danger of complete eradication. Called a ``disturbing precedent'' at 
the time by the National Park Service, the 12 years since the passage 
of the Act into Public Law 105-229 have elapsed successfully. The herd 
is maintained at a target population of 120--130 and the day to day 
management of the horses is conducted by the National Park Service 
Wildlife Biologist, Dr. Sue Stuska. The population is controlled 
through the physical removal and adoption of horses most closely 
related to one another and the administration of the non-hormonal 
contraceptive, PZP. ``The horses are thriving and the island's ecology 
is holding its own.'' (The Wild Horses of Shackleford Banks by Carmine 
Prioli, 2007.) (3,000 acres; 120--130 horses)
    I also conducted extensive research on the management of other east 
coast wild horses as well as existing impact studies before making my 
request. The Chincoteague, VA ponies are owned by the Chincoteague 
Volunteer Fire Department and are grazed on two portions of the 
Chincoteague National Wildlife Refuge under a Special Use Permit 
between USFWS and the Fire Department. These ponies are managed at a 
herd size of 150 by the Fire Department. They reduce the herd by 
holding an annual auction of foals. The Assateague herd (VA) is managed 
by the National Park Service and maintained at 150 as well. No 
information was available regarding the disposition of any horses 
physically removed from the National Park.
    The Journal of Range Management 57(3) May 2004 published a 1997 
impact study by Drs. Richard D. Rheinhardt and Martha C. Rheinhardt 
titled ``Feral horse seasonal habitat use on a coastal barrier spit.'' 
The research was funded by NCNERR and an airplane was furnished by 
USFWS. The objective was to obtain information on the relative 
preference for forage species by season and the seasonal utilization of 
forage habitat by wild horses. The study area extended from the 
northern end of Back Bay Wildlife Refuge in Virginia to Corolla, 
bounded on the east by the Atlantic Ocean and on the west by the 
Currituck Sound. The entire study area encompassed 11,414 acres. 
Results: ``Horses consume few forb species and graminoid species seem 
to recover from grazing by early summer when primary production is 
highest...Because rooting impacts of feral hogs may be more severe than 
horse grazing impacts on Currituck Banks, exclosure experiments would 
have to be designed to separate horse grazing from hog rooting.''
    The Rheinhardt and Rheinhardt study also included an extensive list 
of plants eaten by wild horses and no plants grazed are included on the 
federal threatened species list. The wild horses of the Currituck Outer 
Banks eat only native vegetation (they are not supplementally fed hay 
or grain) and then reseed it in their manure.
    Refuge Manager, Mike Hoff has pointed out that the endangered 
plant, seabeach amaranth has disappeared from the dunes and has 
suggested that the horses may be responsible for this. Research has 
shown that not only is the seabeach amaranth not eaten by the horses, 
the USFWS website states: ``weather events, rainfall, hurricanes, 
temperature extremes and predation by webworms have strong effects on 
the length of the seabeach amaranth's reproduction season...Seabeach 
amaranth appears to be intolerant of competition and does not occur on 
well vegetated sites. . .The most serious threats to the continued 
existence of seabeach amaranth include the construction of beach 
stabilization structures, beach erosion and tidal inundation, beach 
grooming, herbivory by insects and feral animals and, in certain 
circumstances, by off-road vehicles.'' The north beach is directly 
affected by all of the above.
    If we want to determine impact, we cannot overlook the animal that 
leaves the largest footprint of all--humans. On any given day in July, 
there can be 3,000 vehicles driving on the beach and behind the dunes. 
(Attachment 2--cars driving along refuge dune line) Every day, the 
fragile dunes are compromised by humans walking over them, using them 
for sliding boards, and driving over them in off road vehicles. 
(Attachment 3 people on refuge dunes) It is not the horses that leave 
behind plastic bags, beer bottles, plastic water bottles and other 
trash. It is not the horses' trash near the shore bird nest. 
(Attachment 4--nesting shore bird on refuge and trash) It is not the 
horses that leave deep tire ruts in the sand, or drop oil and other 
contaminates on the beach. (Attachment 5--cement trucks stuck in front 
of refuge)
Census:
    Before 2006, no official census records were found in CWHF 
archives. Beginning in 2006, aerial counts were conducted by the CWHF 
Herd Manager and the CNWR Manager. Attachment A (Wild Horse Range 
Acreage, Corolla, NC) shows the entire horse range with CNWR and NCNERR 
property delineated.
        <bullet>  2006--119 horses (CWHF Herd Manager, Steve Rogers; 
        CNWR Manager, Tim Cooper)
        <bullet>  2007--94 (CWHF Herd Manager, Steve Rogers; CNWR 
        Manager, Mike Hoff) 26 horses on CNWR property; 68 on private 
        property; 0 on NCNERR
        <bullet>  2008--101 (CWHF Herd Manager, Steve Rogers; CNWR 
        Manager, Mike Hoff) 23 horses on CNWR property; 74 on private 
        property; 4 on NCNERR
        <bullet>  2009--88 (CWHF Herd Manager, Wesley Stallings; CNWR 
        Manager, Mike Hoff) 0 horses on CNWR property; 84 on private 
        property; 4 on NCNERR.
        <bullet>  2010--115 (CWHF Herd Manager Wesley Stallings; CNWR 
        Manager, Mike Hoff) 35 horses on CNWR property; 71 on private 
        property; 9 on NCNERR
    The CWHF Herd Manager maintains a data base of the wild horses with 
photos, descriptions of physical markings and colors; health status, 
and identification of home territory. It is updated at least weekly and 
we have purchased and been working cooperatively with Dr. Sue Stuska, 
NPS, Cape Lookout National Seashore, on utilizing WHIMS (Wild Horse 
Information Software).
    There are 22--23 harems (stallion and 1--4 mares) as well as groups 
of bachelor stallions evenly distributed over the 7,544 acres. Each 
harem stays in its own home region and generally remains there until 
the end of life. Straying from their home territory precipitates 
violent fighting between stallions and results in mares being stolen 
from their family group.
    The CNWR has two areas fenced with high tensile electric wire to 
exclude wild horses. One fence is located in Swan Beach and covers143 
acres. An additional 135-acre fence was constructed in North Swan Beach 
in March of 2010. On March 12, 2010 CWHF Herd Manager Wesley Stallings 
removed 13 wild horses from within the newly fenced area at the request 
of CNWR Manager, Mike Hoff. These 13 horses were then forced into the 
home territory of other existing harems and violent fighting occurred 
for days as dominant stallions fought over mares and attempted to drive 
the intruders from the home area. One pregnant mare from the group 
removed from inside the fence miscarried a foal that would have been 
born in about a month. Another mare, whose body condition was good when 
removed, had to be euthanized a month later after her body condition 
deteriorated dramatically. She was captured by CWHF and an aggressive 
but unsuccessful week long attempt was made to save her life. 
Attachment 6 (a mare from one of the removed harems waiting in vain to 
return to her home.)
    Attachment 7 (vegetation outside 135-acre refuge fence) is a photo 
taken on Thursday, July 22, 2010. The new refuge fence is in the 
background. As you can see, there is no overgrazing outside the fence 
even after five months. Attachment 8 (small exclosure and vegetation) 
is a photo also taken on July 22nd next to one of six 16' X 16' 
exclosures constructed as part of the current NCSU/USFWS study. There 
is also no evidence of overgrazing in these photos, even in last 
summer's drought conditions.
Wild Horse Management:
    The Corolla Wild Horse Fund is the NGO that physically manages and 
cares for the herd. We currently employ four fulltime staff (executive 
director, herd manager, director of operations, program coordinator), 
and five seasonal staff. Four volunteers serve as Sanctuary Patrol 
Officers who regularly assist with education on the beach and behind 
the dunes. Twenty volunteers are available to assist with captures or 
return of escaped horses. Another group of volunteers assist in our two 
mission related stores and with fund raising activities. We work 
closely with the Currituck Sherriff's Department regarding enforcement 
of the Currituck County Wild Horse Ordinance and any other issues 
regarding the safety of the horses and public. CWHF is on call 24/7, 
365 days a year to respond to emergencies with the horses. We have 
rescued and rehabilitated 19 horses in the last four years and found 
adoptive homes for 38 horses. CWHF maintains a monthly boarding 
contract at a private stable for horses awaiting adoption because they 
cannot be returned to the wild. The CWHF Herd Manager works with the 
horses to domesticate and train them and match them with a loving 
adoptive home. He is a natural horse trainer and a farrier. We 
routinely transport a formerly wild horse to offsite events for 
education and bring a gentled horse awaiting adoption to the grounds of 
our Wild Horse Museum every Wednesday from Memorial Day through 
October. (Attachment 9--children petting rescued and gentled wild 
horse) For the last three years, four formerly wild horses have been 
ridden in the local Fourth of July parade on a street lined with 5,000 
spectators.
    CWHF also transports deceased horses to Raleigh for necropsy and 
covers all associated costs. It is also our responsibility to assist in 
veterinary euthanizations in the field.
    The CWHF Herd Manager maintains all barrier fences including the 
cabled fence out into the ocean and CWHF routinely arranges for the 
accumulated sand to be removed from the cattle guards.
    All expenses related to wild horse management are incurred by CWHF 
with no cost to the federal government. The implementation of H.R. 306 
would not create any horse management costs to the federal government 
as long as the CWHF continues to manage the herd. In 2006, when there 
were 119 horses, no additional CNWR staff was required to address herd 
size. Currituck County contributes 18% of the CWHF's annual budget 
through occupancy taxes and CWHF raises the remaining $346,000 through 
our nationwide membership program, our two mission related stores, 
donations, grants, and special events. Our free Wild Horse Museum 
educates over 75,000 national and international visitors annually. The 
CWHF distributes over 50,000 educational brochures each year, produces 
a quarterly newsletter, and has recently published a book.
    In the last year CWHF has worked cooperatively with the county to 
create and implement a new ordinance prohibiting domestic horses on the 
north beach to eliminate the potential of disease (either housed on 
private property or ridden on the beach); to strengthen the existing 
County Wild Horse Ordinance by adding stronger language; supported 
changes to the County' s Unified Development Ordinance to better 
monitor the actions of commercial horse tours; testified at a public 
hearing against commercial airboat tours in the private canals and 
Currituck Sound; collected and tested water, soil, and plant samples 
from all areas of the north beach; worked with area real estate 
companies to inform all persons renting in the Corolla area about the 
Wild Horse Ordinance; supplied jeep rental companies in Dare County 
with handouts regarding the Wild Horse Ordinance; and coordinated the 
campaign to designate the Colonial Spanish Mustang as the North 
Carolina state horse.
Land Conservation:
    The CWHF holds 70 acres in a donated conservation easement and we 
are working with a local realtor (who is also a volunteer), to compile 
a list of available land for sale. Many lots have been on the market 
for a considerable time period or are unbuildable.
    The CWHF website lists land donation as a method of helping to 
protect and preserve the wild horses and has initiated the ``Freedom 
Fund,'' a restricted account for the purchase of land to be placed in 
permanent conservation easements for the horses.
    The CWHF Herd Manager is currently working with Currituck County 
Cooperative Extension to determine what types of grasses can be seeded 
in our conservation area for additional use by the horses and is 
exploring methods to cost effectively open up more available grazing 
area in the conservation area.
    The long-term goal of the Corolla Wild Horse Fund is to own 
significant land and place it in permanent conservation easements for 
use by the wild horses and other wildlife. The north beach of the 
Currituck Outer Banks is one of the last remaining underdeveloped 
coastal areas left. It is home to a wide variety of wildlife--including 
wild horses. As someone who travels that area frequently, I am 
constantly reminded how very important it is to protect and preserve 
what is left. I see it weekly and often times daily during the height 
of tourist season.
Conclusion:
    For nearly 500 years, the wild horses of Corolla have persevered 
against all odds. I never tire of seeing them and I am always moved by 
their strength, intelligence and great beauty. They have a strong sense 
of family and grieve for lost members. Their will to live is 
unparalleled by any other breed of horse. They are without a doubt one 
of the most athletic breeds I have ever encountered. (Attachment 9--
floating trot of a stallion) These sons and daughters of the sand carry 
a wealth of genetic history that is quickly, not slowly, dying. High 
levels of inbreeding have already produced a few exceptionally small 
horses. We are seeing a decline in the number of foals living to 
adulthood and an increasing number of horses with other abnormalities.
    The North Carolina State Horse will soon disappear from the 
northern Outer Banks. Managing the wild horses of Corolla at a maximum 
of 60 is managing for extinction. This is not just my opinion; it is 
the opinion of two world renowned equine geneticists, Dr. E. Gus 
Cothran and Dr. Phil Sponenberg.
    In response to the April 2008 denial of my request for a larger 
herd size, Dr. Sponenberg, DVM, PhD. (professor of Pathology and 
Genetics, Department of Biomedical Sciences, Virginia-Maryland Regional 
College of Veterinary Medicine) wrote in an August 5, 2008 e mail to 
me: ``In this, as in other cases, the competing interests need to 
somehow come to an effective compromise. I don't know what that will 
look like, but I do know that if a genetically isolated horse 
population is to be genetically secure for the future, then the total 
population must be much closer to 100 than 60.''
    The Corolla Wild Horse Fund is not asking for hundreds of horses. 
We are asking for a target population of 120--130--the number 
recommended by scientific data generated by an expert in the field. 
This is the same number that has existed on federal property on 
Shackleford Banks for the last 12 years on half the land that is 
available to the wild horses of Corolla.
    In the case of the wild horses of Corolla, just raising the 
allowable herd size alone will not solve the issue of our horses all 
being too closely related to one another. Introductions of mares from 
the Shackleford herd are the only way to breathe new DNA into a gene 
pool headed for certain collapse. I have already had discussions with 
Dr. Stuska and Carolyn Mason and both are in favor of moving mares to 
Corolla when they are available. Two to four mares at a time will be 
sure to become the instant family of a Corolla stallion or two. Their 
offspring would be genetically diverse.
    The Corolla Wild Horse Fund has done an admirable job of managing 
wild horses in a complex and challenging environment with a small staff 
and a core group of dedicated volunteers. Like the wild horses, we are 
determined, and we find strength in their presence. (Attachment 10) I 
am honored to be their voice and ask you today to honor their history 
and protect their future. Please move H.R. 306 forward and save these 
historic horses for future generations to view, admire, and respect.
                                 ______
                                 

    [NOTE: A map entitled ``Wild Horse Range Acreage, Corolla, 
NC'' follows. Pictures submitted for the record have been 
retained in the Committee's official files.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Dr. Fleming [presiding]. I thank the witnesses this 
morning for your testimonies. At this point we will begin 
questions of the witnesses. Again, to allow our Members to 
participate, Members are limited to five minutes for their 
questions; however, we may have more than one round of 
questioning. I now recognize myself for five minutes. The 
Fiscal Year 2010 appropriation bill included funding for 
Chesapeake Bay projects through the Interior Department, the 
Army Corps of Engineers, the Department of Agriculture, the 
Department of Commerce, NOAA, the Department of Labor and the 
EPA. Since all these agencies and programs have different goals 
and missions, here is the question, Dr. Mann, how much 
scientific coordination is there between agency scientists?
    Dr. Mann. I think your statement illustrates the magnitude 
of the problem in terms of trying to develop a coherent 
program. The Chesapeake Bay Executive Order essentially directs 
this. When I look at the grassroots level amongst all the 
scientists who are in the Bay, we are verging on bewildered at 
trying to work out how this all works at the grassroots level 
in terms of trying to provide input back into the planning 
process. I think we have an opportunity here simply because of 
our budget restrictions at this point in time to ask some 
critical questions about how we maximize this productivity per 
dollar invested. I, for one, would be happy to participate in a 
broad interagency discussion to try to coalesce these into a 
more ordered manner. I do not think it is as well done as it 
could be.
    Dr. Fleming. Yes. And that is really a problem 
governmentwide, the desperate need to streamline our research, 
streamline our regulations. We have, well, in fact, there was a 
GAO report just the other day that showed unbelievable 
duplication. It is costly and it actually makes the process 
worse. How much coordination is there between scientists and 
policymakers without outside scientists who may be doing work 
either through Federal grants or through independent research?
    Dr. Mann. I think there is coordination and one of the 
reasons why we have the Scientific Technical Advisory Committee 
is to provide that as a conduit. I think what you see, though, 
when I again talk to a lot of my colleagues is the growth in 
the bureaucracy of the process is really difficult to try to 
have a two way information exchange that is efficient and 
dynamic. Yesterday I was at the Environment Virginia Conference 
in Lexington at VMI, and I was pleased to hear two people make 
the same statement. One of them was Jeff Corbin who is a Senior 
Advisor to the Administrator of the Chesapeake Bay Anacostia 
River Section of EPA, a Federal employee representing EPA, and 
Anthony Moore who is the Assistant Secretary of Natural 
Resources in Virginia. Both of them said what we need is 
flexibility, an adaptive approach, listen to innovative ideas, 
and then we have to get it back into the mechanisms as we go 
through our two year milestone reviews. With a program the size 
of the Chesapeake Bay Program, this is clearly difficult to do, 
but you have to find a mechanism of having that iteration to 
realign the goals, especially when we have a limited amount of 
funds, otherwise we are going to miss targets and we are going 
to miss opportunities.
    Dr. Fleming. Thank you. How will the development of an 
adaptive management plan help the coordination?
    Dr. Mann. It is all about communication. It is as simple as 
that. The better that you communicate and the better that you 
respect, the better off you will be. Adaptive management is one 
way of addressing issues. I think the independent evaluator, 
however, is the other component to it. Scientists have this 
strange way of doing things in that if you have a bright idea, 
you write it down, then you send it off to one of the agencies, 
and then what the agency does is it shares it with everyone 
else. You do not get to keep ideas. Only good ideas survive the 
peer-review process. It seems like a strange way of beating 
yourself up to get through a profession. We are all a little 
bit thick-skinned about this but it is the way in which you go 
forward. What you have to do in taking this philosophy is adopt 
the attitude that someone will come up with a better idea than 
mine and science will progress. It is very difficult to look at 
large programs that have long-term goals where the goal is way 
over there where the scientists keep telling you that in order 
to get here you have to continually move. Flexibility in large 
programs is very difficult. The problem that you have is 
compromising those two goals to make it work more efficiently. 
That is where an independent evaluator's office I think is 
going to be very useful. Again, I go back and I provide the 
examples of the way in which the National Science Foundation 
runs large programs. They do it through a peer-review system 
that is critical and it demands quality. We have other models 
in other parts of the government and we should adopt them here. 
It is about communication.
    Dr. Fleming. I thank the witnesses. I now recognize the 
Ranking Member for any questions he may have. Mr. Sablan?
    Mr. Sablan. Yes. Thank you very much, Mr. Chairman. Before 
I ask questions, Mr. Chairman, I would like to ask for 
unanimous consent to enter into the record a statement on H.R. 
306 submitted by the Nature Conservancy.
    Dr. Fleming. Without objection, so ordered.
    [The letter from the Nature Conservancy follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    

    Mr. Sablan. Thank you very much, Mr. Chairman. I will 
just go right to the questions. Mr. Siekaniec. I hope I said 
that right, Greg.
    Mr. Siekaniec. That is correct. Thank you.
    Mr. Sablan. Yes. Let me ask you, what resources would the 
Service currently expend to implement the Currituck Outer Banks 
Wild Horse Management Fund?
    Mr. Siekaniec. Presently, we estimate that the Fish and 
Wildlife Service spends approximately $100,000 of our budget to 
address the management of horses on Currituck National Wildlife 
Refuge. This is primarily comprised of staff time, monitoring 
and fencing costs. In addition to, you know, what we spend sort 
of on an annual budget, we have also taken some steps, last 
year we spent $28,000 to put in place a 143 acre sort of fenced 
exclosure from what we identified as our prime waterfowl 
habitat, sort of the best of the best. We also expended an 
aerial survey, we have $5,000 to complete an aerial survey, and 
we have expended $10,000 on a horse trailer, and dart guns and 
associated equipment.
    Mr. Sablan. Thank you. Notwithstanding this legislation, 
what resources does the Service expect to expend given the 
increasing herd size on the refuge?
    Mr. Siekaniec. Our best estimate is that our budgetary 
needs would rise to approximately $260,000 per year in 
recurring costs. Again, staff time, surveys, capture handling 
costs for horses, vehicles and facility type maintenance.
    Mr. Sablan. All right.
    Mr. Siekaniec. I think there is also an implication of, you 
know, not just the financial costs to us, but the resource 
costs that we are also very concerned with. You know, I think 
we have already heard that the area was identified as a 12,000 
acre horse management area, which I understand already through 
fencing and development has been reduced to 7,700 acres of 
which the refuge represents 4,100 acres, so, as you can see, as 
we reduce this due to private developments that our concern is 
that we are going to start having the majority of the horse use 
and occupancy occurring on the National Wildlife Refuge.
    Mr. Sablan. And if this is enacted, what additional 
resources would the Service expect to spend to implement the 
law?
    Mr. Siekaniec. I had a little trouble hearing your 
question, but you are asking what would we expect to be 
spending?
    Mr. Sablan. Right. Additional expenses if the law were 
enacted. If H.R. 306 were enacted.
    Mr. Siekaniec. Yes. If the law was not enacted we would 
expect that, you know, our budget of $260,000 would need to be 
expanded just for us to be a part of the management operations 
for the Currituck refuge and the wild horses.
    Mr. Sablan. All right. Thank you. Thank you very much. Ms. 
McCalpin, right? Karen, good morning.
    Ms. McCalpin. Good morning.
    Mr. Sablan. Do you have any estimates for how much it will 
cost the Federal Government to manage this wild horse herd 
should H.R. 306 become law? How much of this cost would be 
borne by your organization, please?
    Ms. McCalpin. We bear all of the management costs. I think 
the vehicle and horse trailer that Mr., I am sorry, Siekaniec, 
to which he was referring came from a grant in 2007. We have 
not asked for any other monies after that. I raise about 
$360,000 of our $421,000 budget ourselves. In the future, we 
would not need to request anything from the Service in terms of 
horse management costs. We also bear the cost of all of the 
immunocontraceptive drugs, PZP, which we administer. The guns 
that were acquired for that also came from a $7,000 grant that 
provided us with the horse trailer that we did in partnership 
with the U.S. Fish and Wildlife Service. We have a full-time 
herd manager that is on site almost on a daily basis. Also, the 
exclosure fence that put up I thought was part of a grant with 
North Carolina State University.
    Mr. Sablan. So let me take one more shot. So we are saying 
that what you are spending and what they are spending is really 
the actual cost that we are spending to manage the herds right 
now, and that would probably increase with the enactment of 
H.R. 306?
    Ms. McCalpin. I do not see our budget increasing at all 
with the enactment, and I am not really sure, you know, I 
cannot speak for them, but we do the horse management. We are 
the ones that respond to the emergencies. I would also like to 
say that when we do the aerial counts every year, the maximum 
number of horses that have been ever counted on refuge property 
is 35. The rest of them are found on private land. In terms of 
development and the reduction of habitat, when they referred to 
the map, that reduction in acreage was because when the map was 
originally done it included a lot of areas to which the horses 
had no access, and so the new map of 7,500 acres is actual land 
to which the horses have access. It included water and islands 
that the horses were not using.
    Mr. Sablan. Thank you very much, ma'am. My time is up, Mr. 
Chairman.
    Dr. Fleming. Gentleman's time is complete. I now recognize 
Mr. Wittman from Virginia.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our panelists again for joining us today. I would like to begin 
by asking unanimous consent to submit my full remarks for the 
record and to include supporting letters from Ducks Unlimited 
and the Chesapeake Bay Foundation.
    Dr. Fleming. Without objection, so ordered.

    [A letter submitted for the record by the Chesapeake Bay 
Foundation follows:]

April 6, 2011

The Honorable John Fleming, Chairman
Subcommittee on Fisheries, Wildlife, Oceans, and Insular Affairs
House Committee on Natural Resources
Washington, DC 20515

Dear Mr. Chairman,

    On behalf of the Chesapeake Bay Foundation, we respectfully request 
that this conditional letter of support for bill H.R. 258, the 
Chesapeake Bay Accountability and Recovery Act of 2011, introduced by 
Representative Rob Wittman, be submitted for in inclusion into the 
record at the House Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs scheduled for Thursday, April 7, 2011.
    H.R. 258 includes several elements that we believe further ongoing 
efforts to restore the Chesapeake Bay. The bill would require the 
Director of the Office of Management and Budget, in consultation with 
the Chesapeake Executive Council, the chief executive of each 
Chesapeake Bay state, and the Chesapeake Bay Commission, to submit to 
Congress a financial report containing: an interagency crosscut budget 
for restoration activities in the Chesapeake Bay watershed; an 
accounting of funds received and obligated by all federal agencies for 
restoration activities. In addition, H.R. 258 would require the 
Administrator of the Environmental Protection Agency (EPA) to develop 
and update every three years an adaptive management plan for 
restoration activities in the Chesapeake Bay watershed while also 
requiring the appointment of Independent Evaluator for the Chesapeake 
Bay watershed, who review and report to Congress every three years on 
restoration activities and the use of adaptive management in such 
activities.
    H.R. 258 would provide transparency for Congress and the public to 
track ongoing federal, state, and local efforts and expenditures as 
part of Chesapeake Bay restoration activities, which is valuable in its 
own right and would also be useful to furthering public understanding 
of the sources, pathways, and effects of pollution on the Chesapeake 
Bay and its tributaries.
    Our one concern with the text of H.R. 258 is with section three, 
which would require the EPA Administrator to develop a time-consuming 
report on Chesapeake Bay restoration activities, presumably at the 
federal as well as the state and local levels. In the year 2000, the 
Federal Government and the Chesapeake Bay States agreed to work 
together to develop and implement a comprehensive plan for the recovery 
and restoration of water quality in the Chesapeake Bay. More than ten 
years later, at the end of 2010, the Federal Government, six states, 
and the District of Columbia finally ushered in this new era of 
cooperation when they released detailed plans to reduce Chesapeake Bay 
pollution to restore water quality over the next fifteen years.
    We believe that the states are the appropriate authors for the 
types of detailed adaptive management plans envisioned in HR 258, and 
that a great deal of work has already been done by them. As a 
consequence, we believe that the bill language should be somewhat 
modified to direct the Administrator to ensure that the next iteration 
of the states' plans include the various criteria listed in the bill. 
The language could further state that the Federal Leadership Committee, 
which the Administrator chairs, should include similar criteria in its 
Annual Action Plan and Annual Progress Report required by Executive 
Order 13508. In our view, these modest changes would allow 
Representative Wittman's legislation to be more supportive of state-
level planning and avoid duplication of work that has already been done 
to a large degree.
    We acknowledge and applaud the efforts of Representative Wittman 
and the other cosponsors of the bill to further the restoration of the 
Chesapeake Bay and its many tributaries, and we look forward to 
continuing to work with him and the other members of the House Natural 
Resources Committee on H.R. 258. We urge the Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs to modify the legislation along 
the lines suggested above and then favorably report the legislation to 
the full House Natural Resources Committee.

Respectfully submitted,

Doug Siglin
Director of Federal Affairs
Chesapeake Bay Foundation
                                 ______
                                 
    [A letter submitted for the record by Ducks Unlimited, 
Annapolis, Maryland, on H.R. 258 follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Mr. Wittman. Thank you. Dr. Mann, again, thank you for 
your testimony today and for your service to the citizens of 
Virginia, especially in your work there at VIMS. I wanted to 
follow up from your last comment where you talked about the 
independent evaluator and the utility of an independent 
evaluator in looking at how to evaluate restoration activities 
and the implementation of adaptive management. I want to get 
your overall view about how do you think an independent 
evaluator could best be utilized in this process of looking at 
what is happening, making sure that that independent evaluator 
is shaping decisionmaking at the agency level.
    Dr. Mann. Let me respond to that by giving the example of 
what we do at the Virginia Institute of Marine Science. Over 
our 60 year history, we have a task that is spread throughout 
the code of Virginia to provide independent advisory review of 
issues for the Governor, for his cabinet, for the General 
Assembly, for the state agencies, for the citizens of the 
Commonwealth and further afield as requested. This footprint 
covers everything from the size of flounder that you can take 
to whether or not a gas pipeline should be put underneath the 
James River, to the large scale development and economic and 
ecological impacts of reservoirs, and at this point in time we 
are actually working with the Commonwealth and other state 
agencies on siting for what could be some of the largest wind 
power windmills anywhere in the world. We have a broad swath of 
expertise and our role is to provide independent scientific 
assessment. Now, these are not always popular. When we 
essentially guarded against the development of the King William 
Reservoir, before I got back to my office there were calls to 
the president of the university to have me fired. The point is 
is that we provide this independent evaluation, you do it 
publicly and you do it into the agencies at the point where 
they can best use that information, and you do it critically 
and without bias. It is a matter of communication and it is a 
matter of being honest, and if you do not like what you are 
going to hear from us, you are going to hear it anyway. This is 
how scientific review works. I think there is opportunity 
within the Bay program structure to do that. I think our 
history of doing this as an institution using the broad base of 
expertise that is available to us shows that we can contribute 
in just the same way to the Bay programs. So review is not the 
problem. Get us the information. If we cannot review it, we 
will find you somebody who can and we will provide the input in 
the other direction, and from there on, you have a 
conversation.
    Mr. Wittman. So it sounds like what you are saying is that 
an institution like VIMS would be particularly well-suited to 
play this independent evaluator role by looking at the science 
and to be a purveyor of that information, to be the facilitator 
of communication back and forth between the decisionmakers and 
the agencies, those folks having to implement parts of the 
Chesapeake Bay Act, and looking at what works, what does not 
and then using science as the foundation to determine how 
decisionmaking takes place, which, as you pointed out earlier, 
especially in days of resource challenges, we cannot afford to 
be taking wrong tracks that expend significant amounts of money 
that do not produce results. So I just wanted to get your 
thoughts along those lines.
    Dr. Mann. In a sentence, I would be happy to offer the 
resources of the institution toward this end.
    Mr. Wittman. OK. Very good. I wanted to get your thoughts, 
too, on why adaptive management as a model or as a paradigm is 
particularly applicable to complex environmental systems like 
the Bay. As we know, the Bay has many, many different aspects 
to it, and wanted to get your thoughts about why adaptive 
management would be a better paradigm than the existing 
paradigm that is being used to implement Bay programs and to 
attempt to achieve results, whether it is in restoration of 
natural resources or improvement in water quality and those 
types of areas.
    Dr. Mann. I have commented on the fact that the Bay is a 
changing environment. Let me give you one example. Twenty-five 
years in one minute. Twenty-five years ago the striped bass 
populations in the Chesapeake Bay were extraordinarily 
depressed. Based upon a comprehensive and peer-reviewed 
numerical model, population dynamics, extraordinary measures 
were taken to rebuild the population, including moratoriums on 
fishing. Those people who enjoy striped bass fishing now, they 
know that it worked. We are done? No, we are not. About 10 
years ago, many of the striped bass started to appear with 
huge, red lesions on the outside of them, truly grotesque red 
lesions, and everybody said it is a new disease that has come 
in, we should be worrying about a new disease. What did we 
learn from adaptive management?
    It turns out that this disease is caused by something 
called mycobacterium. It turns out that mycobacterium is 
present in most of the striped bass in the Chesapeake Bay, in 
just the same way as you carry around the cold bugs. It is when 
you get stressed in the winter that it manifests itself and you 
start sneezing. So what we have learned is is that these 
animals that we thought were free may, in fact, carry a very 
low level of an infectious disease, but why did this infectious 
disease suddenly manifest itself after a long period of time? 
It turns out that this might be due to the fact that the low 
oxygen pools in the bottom of the Bay are getting bigger.
    What has that got to do with striped bass? They use deep 
water, cold water, as refuges in the summer. If they cannot go 
into the refuges, they live in high temperatures. If they are 
in high temperatures, then the disease manifests itself. What 
we have here is an extraordinarily complex web that just deals 
with one species. So how do you manage striped bass now as 
opposed to how you did it 25 years ago? You need to incorporate 
into the management plan a component that deals with disease. 
That is adaptive management--taking new information, adding it 
back in, refining what you do, going forward and being prepared 
to change it again if it does not work.
    Mr. Wittman. Very good.
    Dr. Fleming. I thank the gentleman. Next up is Mr. 
Southerland from Florida.
    Mr. Southerland. Thank you, Mr. Chairman. I would like to 
thank all the witnesses for being here today. I want to ask, if 
I could, Dr. Hutchins, as far as the horses and the herd that 
we are discussing today, is it not possible that the horses 
arrived on these shores long before some of the other species 
that you are committed to protecting in the refuge?
    Dr. Hutchins. Well, that is unlikely. I mean, the horses 
arrived there approximately 500 years ago, as pointed out. That 
is just a drop in time when you are talking about geological 
time.
    Mr. Southerland. But we do not know, do we?
    Dr. Hutchins. I am sure that most of our native species 
have been here for millennia.
    Mr. Southerland. Is it true, though, that in your statement 
you said in a perfect scenario the Federal horses should be 
removed from the refuge altogether? I mean, is the Wildlife 
Service, are you interested in them disappearing at all, I 
mean, that they would totally be removed and you would not have 
to deal with this issue at all?
    Dr. Hutchins. In a perfect world, yes.
    Mr. Southerland. OK. Based on that, then if you are 
managing at 60, then you would literally be, in your perfect 
environment you would be managing this herd to extinction, 
correct?
    Dr. Hutchins. Well, we have talked a little bit about the 
genetic diversity in this herd which could easily be maintained 
by bringing in animals on a regular basis from outside that 
herd.
    Mr. Southerland. Right.
    Dr. Hutchins. You can maintain small, isolated populations 
genetically through that technique.
    Mr. Southerland. I am curious about your philosophy that 
these are feral and they are pests. Obviously, you know, the 
foundation of this country, I mean, in your belief, that 
definition of feral, definition of pest, I guess it could also 
be said that the White man, the Caucasian, is feral.
    Dr. Hutchins. Well, if you wanted to take it that far.
    Mr. Southerland. I am serious. No, no, no, no, no.
    Dr. Hutchins. This is a very different situation.
    Mr. Southerland. No, no, no. But based on your definition 
that they were not here 500 years ago, we are feral.
    Dr. Hutchins. Well, let me just say that----
    Mr. Southerland. That is a yes or no. I am running out of 
time.
    Dr. Hutchins. It is a no.
    Mr. Southerland. Really?
    Dr. Hutchins. Well, I mean, humans are the most adaptive 
species that is on this planet. We have gone everywhere on our 
own. We have not, you know, been removed around artificially, 
which is what we have done with other species. I might notice, 
or note that one of the issues that came up here was the impact 
of humans on the island ecosystem, but these results are 
cumulative. When you are getting non-native species and the 
impacts of humans on these sensitive habitats there are 
cumulative impacts that can really seriously affect our native 
wildlife. It really comes down to values. Do we really value 
our native wildlife and our refuges----
    Mr. Southerland. Right.
    Dr. Hutchins.--or are we going to create theme parks for 
non-native species.
    Mr. Southerland. Well, I think, sir, you made a great 
argument, though, for the Native Americans, OK? I think we 
should be on the reservations, OK? This was their land, OK, 
when we got here, OK? I think that if you take your theory, OK, 
which I think is a theory, and apply that to the way the 
country was founded, I think that the Caucasians, the 
Hispanics, the Asians, the Spanish-Americans, that we would be, 
by your definition, feral and clearly pests to the Native 
Americans. I want to ask, and Siekaniec? Is that? I apologize 
if I pronounced that wrong. You know, obviously it has been 
stated that people come--I remember when I was 12 years old my 
grandparents took me up there to see these horses and to see, 
you know, horses like this on the barrier islands, swim the 
channels, and I mean it was fascinating. It is a huge economic 
impact. If, in your world, there was an extinction and they 
were removed and not there, what is the economic impact on 
jobs, small businesses, heads in beds, I mean really cranking 
the economy, what is the negative impact of, in your world, 
these horses not being there at all? Do we know that?
    Mr. Siekaniec. I do not have information that would lead us 
to an economic analysis having been done on whether they would 
be present or absent.
    Mr. Southerland. Right. So if we do not know the economic 
impact, and the negative economic impact, then it seems like 
you are pursuing a policy that would be like ready, shoot, aim, 
and so I would, I just, I find it amazing that we have total 
disregard, OK, to humans since we have the ability to adapt. I 
mean, you are asking us to adapt in a way that I think is very 
unfair and I think it is irresponsible. Finally to you, Ms. 
McCalpin, thank you for your efforts. I think these horses have 
great value. I think they are part of the culture here. Five 
hundred years. They were here welcoming us when we got here. I 
applaud them for their longevity and their ability to adapt. I 
think this is perhaps the strongest challenge they have, to 
adapt to people that would love to see them become extinct. So 
I know I am over my time, but, Mr. Chairman, I yield back.
    Dr. Fleming. I thank the gentleman from Florida. I think we 
are all still very interested in these subjects so we would 
like to have another round if the witnesses would hang with us. 
We may be up against a vote in a few minutes so we will try to 
go ahead and squeeze this round in. I will begin the second 
round. Ms. McCalpin, in your testimony you mention that written 
record of these horses arrived on the Outer Banks of North 
Carolina dates back to 1520.
    Ms. McCalpin. Yes, sir.
    Dr. Fleming. The Fish and Wildlife Service has consistently 
referred to these horses as pests or feral domestic animals, 
but the Service is committed to protecting another historic 
species at the Currituck National Wildlife Refuge that arrived 
after the Corolla horses. Let me say parenthetically here, last 
year we had hearings and a bill was passed out of here that 
increased the range for feral donkeys and horses out West which 
is being paid for by taxpayers, or would be should that come to 
fruition. On the other hand, as I understand it, this is a 
program that is being supported privately. So I am really a bit 
mystified and befuddled about this sort of double standard that 
we seem to have, so I would first of all ask how long does a 
species have to be here in the United States before the Fish 
and Wildlife Service gives them a green card?
    Ms. McCalpin. I cannot answer that, sir.
    Dr. Fleming. Sorry. Tough question. I apologize. Are you 
asking for, or do you anticipate asking the Federal Government 
for funding to implement H.R. 306?
    Ms. McCalpin. No, sir. Not a dime.
    Dr. Fleming. OK. The witness shakes her head no. Do you 
have any plans for land acquisition?
    Ms. McCalpin. In fact, we have just initiated the Green 
Fund. Now is a great time for us to be acquiring land. 
Unfortunately, with the economy, there are a lot of people that 
are sitting on land that is going into foreclosure, so our 
board has voted to move forward with a very concerted effort on 
trying to acquire land both through grants and through 
donations, and that land would be put into conservation 
easements so that it would be permanently available not just to 
the wild horses, but to all the wildlife.
    Dr. Fleming. OK. It is my understanding that the 
Chincoteague National Wildlife Refuge allows grazing on two 
tracts for up to 150 ponies through a special use permit with 
the nonprofit Chincoteague Fire Department.
    Ms. McCalpin. That is correct.
    Dr. Fleming. Has the Fish and Wildlife Service objected to 
the management of these ponies?
    Ms. McCalpin. I am not aware of that. We have not had any 
of those discussions in the Wild Horse Advisory Board meetings 
that we have.
    Dr. Fleming. So certainly you have no knowledge of any 
objections that they have----
    Ms. McCalpin. No, and that is an activity that has been 
going on for quite a number of years.
    Dr. Fleming. Where do the ponies live?
    Ms. McCalpin. They live on the wildlife refuge in two 
separate tracts.
    Dr. Fleming. All right. What is the cost to the Service to 
manage the ponies?
    Ms. McCalpin. In Chincoteague?
    Dr. Fleming. Yes.
    Ms. McCalpin. I do not know the answer to the question. I 
believe the cost is primarily incurred by the Chincoteague Fire 
Department, similarly to the Corolla Wild Horse Fund incurring 
the cost for managing the wild horses on Currituck.
    Dr. Fleming. Yes. Mr. Siekaniec, do you know what the cost 
is?
    Mr. Siekaniec. On Chincoteague refuge I do not have an 
estimate of what the costs are. I do have a little bit of 
information that sort of describes the relationship between us 
and the fire, the group that actually administers the horses. 
The horses do, they are on the refuge for a period of time, but 
they are also off the refuge for a period of time. We have 
actually entered into a successful management plan so we have a 
very clear understanding of how many horses would be on the 
refuge at what particular points in time and it is administered 
through a special use permit, and there was a point in time 
when we did recognize there was a lot of damage being done by 
horses on the Chincoteague refuge, which is how we had to end 
up in a management strategy plan. Through our comprehensive 
conservation plan, we now recognize that the best approach for 
management----
    Dr. Fleming. Well, let me interrupt you a moment because I 
am running out of time. Just, if you would, sir, explain to me 
why these are a species of ponies that certainly we treasure, 
and on the other hand the Corolla horses are pests that we seem 
not to want to try to support. Can you give me an idea of why 
we--I mean, this seems to be so internally inconsistent and 
contradictory.
    Mr. Siekaniec. Yes. Well, I think what we actually do is we 
would view the horses at Chincoteague as well as feral wild 
horses, just like we would at Currituck. We have entered into a 
very successful management plan at Chincoteague. We have a 
management plan that we have entered into at Currituck that we 
believe can be very successful. What we are really arguing 
about is the number. We believe that a number of 110 to 120 
would probably over stress the habitats associated with the 
amount available at Currituck. I believe Chincoteague has 
13,000 acres available. Currituck is now 4,000 refuge and an 
additional three in the private land surrounding. So we have 
just two different relationships.
    Dr. Fleming. My understanding is that three of the four 
signatories on that disagree with that. Anyway, my time is done 
so I thank the witnesses. I now yield to the Ranking Member for 
five minutes, sir.
    Mr. Sablan. Thank you very much, Mr. Chairman. This is a 
time when I am actually glad I come from islands, and 14 
islands, I represent 14. Three of the islands are actually full 
conservation islands. People, individuals, whether you are 
Chamorro or Caucasian, you are not allowed on the island. We 
keep it for the birds, and the coconut crabs and things like 
that, so I do not have this problem. Dr. Mann, I mean, I am 
sorry, Dr. Hutchins, please. Do you have any concerns about the 
genetic viability of the herds?
    Dr. Hutchins. Well, once again, genetic viability, 
certainly small populations are susceptible to the loss of 
genetic diversity fairly rapidly because of inbreeding 
concerns. However, that can be taken care of by the occasional 
immigration of a few animals that would introduce, you know, 
genetic diversity into the herd. So I would not be that 
concerned about it. I think if it was an enclosed population 
that was there for a long time without the introduction of new 
genetic diversity, then it would be a concern. If new diversity 
can be introduced to the herd, it is not a concern.
    Mr. Sablan. Thank you very much. Dr. Mann, can you please 
explain or elaborate on what resources are needed by the 
scientific community to improve upon existing models and to be 
able to communicate those results to the stakeholders of the 
Chesapeake Bay.
    Dr. Mann. Synthesis in terms of models is something that we 
can do using the data that is available. Support for those 
synthesis is relatively modest in terms of actual processing 
data that is available. That will I think be a very good place 
to start. Communication is something that scientists do not 
always do well, but it is something that we should be tasked 
with. It is matter of communicating with both the Federal 
offices and with the public in terms of stakeholders. It is 
something that I do a lot of in my role as an advisory service 
director. Not all of the science community does it well. It 
should be part of our mandate to do that. I think if you wish 
to reengage the science community in this, a general statement 
from this Committee that this is something that is important in 
terms of progressing with the Executive Order to get there, I 
think the community will respond.
    Mr. Sablan. And because we are all dealing with 
conservation here, Mr. Chairman, I do not have to use up my 
time. I yield back the remainder.
    Dr. Fleming. The gentleman yields back. Next up for 
questions is the gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I want to go back to 
Dr. Mann again and pick up where you left off in talking about 
adaptive management. I want to take that to the next step. You 
talked very eloquently about making sure that the partners in 
Bay restorations are engaged and that there are communications 
back and forth and how critical that is in decisionmaking, and 
to make sure that there are actually results being achieved. I 
want to ask you, you have an awful lot of experience in dealing 
with agencies there in Virginia, both state agencies and the 
Federal agencies, in many of these restoration activities, and 
in that experience are there any examples that you can cite, 
and maybe even recent examples, where there has not been that 
kind of cooperation or where we could be better at engagement 
and communications and making decisions about restoration 
activities, or water quality improvement, whatever it may be? I 
was just wondering if you might be able to share an example 
with us where that is critical to decisionmaking and outcomes.
    Dr. Mann. I think there are probably two very good examples 
where the pointed end of the stick is getting shoved in both 
directions at the moment. One of them is the TMVL debate which 
got to be quite testy and has now, I think, been resolved 
through a very good line of communication, I keep using that, 
between the state agencies and the EPA. This is total maximum 
daily loads. I think we are making progress there. If you want 
an example in the natural resource area, it is impossible to 
talk about the Chesapeake Bay without talking about oysters. 
Oyster restoration is probably one of the continuing 
controversies. If you look at the words in the Executive Order, 
20 estuaries by 2025, I mean this is an extraordinarily bold 
goal. I mean, John Kennedy set bold goals to fly to the moon 
and back. When I talked about the striped bass example, the 
decisions on the moratorium on striped bass were based on a 
very comprehensive understanding of biology and a strong peer-
reviewed mathematical model. We do not have one of those for 
oysters, and so at the moment, we are setting goals and we are 
setting strategies based on those. Now, the current NOAA 
strategy is to invest in sanctuaries. During my career in 
restoration I have been a strong proponent of these areas to 
keep out fishermen. Sanctuaries are great, and, in fact, they 
are used well in wildlife biology. There is also an attitude 
that if you invest in continuing to rebuild areas that are 
subject to fishing but limit fishing, you might also increase 
populations by this approach in areas that are not sanctuaries. 
You control access to them. I have also been a proponent of 
that. I have worked with the National Marine Fisheries on these 
sorts of things for 20 plus years. So there are two approaches 
here. Which one are you going to use? Well, in a period of 
unlimited resources, let us do both. We are not in a period of 
unlimited resources, and that is what is critical at the moment 
to have an active debate between the NOAA approach, it is not 
that this is wrong, or the state approach, and it is not that 
that is wrong either, it is just that if you have a limited 
amount of money, then each put forward a proposal and then have 
it reviewed by entities outside of the Chesapeake Bay or 
independent of this, this is the independent evaluator, and let 
them decide and give some guidance back as to how we could best 
invest where we are looking at a future of trying to build on 
relatively modest investments that are dictated by your budget. 
I think this is an example where I am not trying to gore 
anybody's ox, but it is where an active debate, peer-review, an 
independent evaluator and holding everyone accountable, this is 
an example where we can do this. Thank you.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Dr. Fleming. The gentleman yields back. It appears that all 
questions have been asked today. I would like to again thank 
the witnesses for their valuable testimony and for their 
appearance before this Subcommittee today. Members of the 
Subcommittee may have additional questions and we may ask that 
you respond to these in writing. The hearing record will stay 
open for 10 days to receive these responses. I want to thank 
Members and staff for their contributions to this hearing. If 
there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
